<html>
<title> - FEDERAL HIGHWAY ADMINISTRATION BUDGET FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-263]
[From the U.S. Government Printing Office]



S. Hrg. 108-263
 
       FEDERAL HIGHWAY ADMINISTRATION BUDGET FOR FISCAL YEAR 2004
=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                                 of the

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 27, 2003

                               __________


  Printed for the use of the Committee on Environment and Public Works











                      U.S. GOVERNMENT PRINTING OFFICE

90-366                       WASHINGTON : 2004
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, DC area 
(202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, DC 20402-0001













               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      one hundred eighth congress
                             first session

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            HARRY REID, Nevada
MICHAEL D. CRAPO, Idaho              BOB GRAHAM, Florida
LINCOLN CHAFEE, Rhode Island         JOSEPH I. LIEBERMAN, Connecticut
JOHN CORNYN, Texas                   BARBARA BOXER, California
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
CRAIG THOMAS, Wyoming                THOMAS R. CARPER, Delaware
WAYNE ALLARD, Colorado               HILLARY RODHAM CLINTON, New York
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director
                              ----------                              

           SUBCOMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                     CHRISTOPHER S. BOND, Chairman
JOHN W. WARNER, Virginia             HARRY REID, Nevada
GEORGE V. VOINOVICH, Ohio            MAX BAUCUS, Montana
LINCOLN CHAFEE, Rhode Island         BOB GRAHAM, Florida
JOHN CORNYN, Texas                   JOSEPH I. LIEBERMAN, Connecticut
LISA MURKOWSKI, Alaska               BARBARA BOXER, California














                            C O N T E N T S

                              ----------                              
                                                                   Page

                           FEBRUARY 27, 2003
                           OPENING STATEMENTS

Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................     1
Boxer, Hon. Barbara, U.S. Senator from the State of California...    13
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     7
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     3
Reid, Hon. Harry, U.S. Senator from the State of Nevada..........    17
Thomas, Hon. Craig, U.S. Senator from the State of Wyoming.......    13
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     9

                                WITNESS

Peters, Hon. Mary E., Administrator, Federal Highway 
  Administration.................................................    15
    Prepared statement...........................................    31
    Responses to additional questions from:
        Senator Jeffords.........................................    43
        Senator Voinovich........................................    37

                          ADDITIONAL MATERIAL

Report to Congress on Federal Highway Administration 
  Environmental Streamlining Activities During 2002..............    44















       FEDERAL HIGHWAY ADMINISTRATION BUDGET FOR FISCAL YEAR 2004

                              ----------                              


                      THURSDAY, FEBRUARY 27, 2003

                               U.S. Senate,
         Committee on Environment and Public Works,
         Subcommittee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m. in 
room 406, Senate Dirksen Building, Hon. Christopher S. Bond 
(chairman of the subcommittee) presiding.
    Present: Senators Bond, Voinovich, Thomas, Boxer, Cornyn, 
Reid, Jeffords [ex officio] and Inhofe [ex officio].

  OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, U.S. SENATOR 
                   FROM THE STATE OF MISSOURI

    Senator Bond. Good morning. It's a pleasure for me to be 
able to welcome you here today, Ms. Peters. We appreciate the 
opportunity to get your testimony on the Administration's 
fiscal year 2004 budget request for the Federal Highway 
Administration. I am glad to have my colleagues with me, and we 
wanted to get started on time.
    Unfortunately, I cannot say that I am very pleased with the 
initial report of what is to come from the Administration in 
terms of a reauthorization proposal. I look forward to 
receiving your proposal so we might be able to work with the 
Administration as we develop our mark for this committee. We do 
need to work together, because there will be some changes.
    As you know, the President's budget request includes $29.3 
billion obligation limitation for the Federal Aid Highway 
program. This is a $2.5 billion cut to the $31.8 billion that 
Congress just passed less than 2 weeks ago in the Omnibus 
Appropriations bill. It appears that the Administration has not 
heard the resounding support that the Senate has for our 
Nation's infrastructure, but, they send up a budget number that 
doesn't even reach the 2003 level of funding. My math skills 
are a little rusty, but I calculate it as somewhere around an 8 
percent cut. When I've had the opportunity to ask some of my 
colleagues about their willingness to support a bill that 
provides an 8 percent cut, I have found literally not one 
single volunteer.
    So at the $29.3 billion level, there won't be any bill 
passed. I'm deeply honored and appreciate the chance to chair 
this subcommittee, to work with our Chairman and ranking 
members. But I didn't do it to run into a brick wall. To 
illustrate the level of support within the Senate for higher 
levels of funding, I circulated a little letter to the Senate 
Budget Committee, the Senate Finance Committee and our leaders 
saying that $29.3 billion is inadequate to enable Congress to 
pass the reauthorization of TEA-21. It says, ``This amount is 
inadequate to enable the Congress to pass the reauthorization 
of TEA-21.'' We urge you to join us in working to boost highway 
funding to address these needs and improve our highway and 
transit systems.
    I'll have a copy for you, but as you can see, I've only 
worked on this a few days and we have 64 signatures. We can get 
more, but I think maybe that makes the point. Twenty-nine point 
three billion dollars is inadequate even to get a bill out of 
the committee, because my own State of Missouri has the third 
worst roads in the Nation, 59 percent of its roads are either 
in poor or mediocre condition, requiring immediate repair or 
reconstruction. Missouri also has the second worst bridges in 
the Nation, with 26 percent of its bridges 20 feet or longer 
structurally deficient.
    I think the needs of Missouri fall in line with the 
Department of Transportation's recently released conditions and 
performance report, which estimates that the annual Federal 
investment in roads must increase by 17 percent per year, 
simply to maintain, the Nation's existing highway and bridge 
system. Improving the system will require 65 percent more than 
is currently invested.
    We know in Missouri that inadequate roads not only lead to 
congestion--therefore more pollution--they delay, deny and 
derail economic development opportunities, but they also kill 
people. We have more than one death a day on the highways in 
Missouri and I think that a large number of those are directly 
attributable to inadequate infrastructure. When you have 
traffic, 10, 15, 20,000 cars a day on a narrow, two-lane road, 
you're going to have people passing when they shouldn't, and 
they run into other people headlong.
    I commend the Administration for proposing to spend some of 
the balances in the Highway Trust Fund, thereby spurring 
economic growth. But I believe we must spend the balances down 
even further over the life of the next authorization if we're 
to get the jobs, the economic stimulus and the economic 
opportunity as well as safety we need.
    I do look forward to working with the Administration to 
structure a comprehensive reauthorization package to improve 
the overall condition of the highways. I will look forward to 
your testimony but first, let me call on the ranking member, 
Senator Jeffords, for any comments he may have.
    [The prepared statement of Senator Bond follows:]
      Statement of Hon. Christoper S. Bond, U.S. Senator from the 
                           State of Missouri
    I would like to thank you Ms. Peters, for testifying before our 
subcommittee today on the Administration's fiscal year 2004 budget 
request for the Federal Highway Administration.
    I cannot say that I am very pleased with this initial report of 
what is to come from the Administration in terms of a reauthorization 
proposal. However, I look forward to receiving your proposal so that we 
might be able to work with the Administration as we develop our 
Chairman's mark.
    As you know, the President's Budget request includes a $29.3 
billion obligation limitation for the Federal-aid Highways Program. 
This is a $2.5 billion cut compared to the $31.8 billion that Congress 
just passed less than 2-weeks ago in the Omnibus Appropriations bill.
    It appears that the Administration has not yet heard the resounding 
support that the Senate has for our nation's infrastructure by sending 
up a budget number that does not even reach the FY2003 levels of 
funding.
    To illustrate the level of support within the Senate for higher 
levels of funding, I have a letter which has been signed by 63 Senators 
and counting to the Senate Budget Committee, the Senate Finance 
Committee and our Leaders saying that $29.3 billion is inadequate to 
enable the Congress to pass the reauthorization of TEA-21.
    $29.3 billion is inadequate to even get a bill out of this 
committee. My own state of Missouri has the 3rd worst roads in the 
nation, with 59 percent of its major roads in either poor or mediocre 
condition, and requiring immediate repair or reconstruction. Missouri 
also has the second worst bridges in the nation, with 26 percent of its 
bridges 20 feet or longer structurally deficient.
    The needs of Missouri fall in line with the Department of 
Transportation's recently released Conditions and Performance Report 
which estimates that the annual Federal investment in roads must 
increase by 17 percent per year simply to maintain the nation's 
existing highway and bridge system. Improving the system will require 
65 percent more than is currently invested.
    I commend the Administration for proposing to spend some of the 
balances in the Highway Trust Fund, thereby spurring economic growth 
through additional revenue. I believe that we must spend the balances 
down even further over the life of the next authorization to create 
even greater revenue and jobs.
    I look forward to working with the Administration in the coming 
months to structure a comprehensive reauthorization package to improve 
the overall condition of our nation's highways. Thank you for your 
testimony.

    Senator Bond. Senator Jeffords.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. Thank you, Mr. Chairman. Thanks to 
Senator Reid also for convening this hearing on the President's 
proposed budget for surface transportation.
    Today's hearing marks the beginning of our committee's 
reauthorization process in the 108th Congress. I look forward 
to working with each of you and with our Chairman, Senator 
Inhofe, on this important challenge.
    I also look forward to working with the Administration, 
with my good friend the Secretary, Norm Mineta, and with 
Administrator Mary Peters, our witnesses for today's hearing. 
Pleased to see you here.
    To you Norm, get well soon. Send a little message for me, 
will you, and get back to the arena. We will need your wise 
counsel in the future.
    Now to the matter at hand. I am underwhelmed by the 
Administration's budget proposal for transportation. It is 
inadequate, a step backward, it underfunds transportation at 
this time of national economic need, at a time America needs to 
create more jobs and invest in infrastructure. The President's 
budget is really about priorities and making choices. I think 
the Administration is significantly underfunding transportation 
while proposing stock dividend cuts to the tune of $390 
billion.
    Senator Voinovich and others have raised serious concerns 
about how the dividend tax cut could negatively affect 
construction projects. I share these concerns, as do many on 
this committee. The Administration's proposal also lacks vision 
when it comes to financing the program. Two arguments should no 
longer be operative: we've never done it this way before and 
we've always done it this way before. That said, we need to 
seek new ways.
    The President has called for a national campaign to develop 
cars and trucks powered by hydrogen-based fuel cells. I support 
this. The President wants this Nation to break its dependency 
on foreign oil. We all do, and welcome the air quality benefits 
it will generate.
    But I recognize such a shift would have implications on the 
Highway Trust Fund. As we turn to new sources of energy, we 
move away from the traditional funding sources. We need to 
consider bold, new measures to finance our surface 
transportation program. Fuel taxes have not kept pace with 
program needs. We are in a transition, moving from a reliance 
on fossil fuel user fees to deployment of a new system. We must 
start now to introduce the next generation of financing 
techniques for transportation. All options must be on the table 
to ensure that our program is adequately funded.
    Foreign and domestic corporations are now racing to perfect 
vehicles which may run on hydrogen, derived from water. In 
addition, right now thousands of electric cars are sold each 
month in the country. Toyota plans to sell 300,000 of these so-
called hybrid cars annually by 2005. This will nearly double 
the gas mileage and reduce the trust fund receipts nearly in 
half for those years.
    I understand that these hydrogen fuel cells, or electric 
cars, could be on the road in greater numbers in 4 or 5 years, 
before our next TEA bill expires. Morgan Stanley predicts that 
these sales could grow to 15 percent of all vehicle sales. 
While that is bad for the foreign oil cartels, it is great for 
American consumers.
    Our old funding formulas are becoming obsolete. We need an 
approach that distributes funds to solve transportation 
problems. Let's not waste time making arbitrary changes to 
arbitrary factors buried in outdated formulas. Let's get this 
job done on time by working together and addressing the 
national need.
    I have a proposal for surface transportation renewal that 
will build on this principle. My proposal recognizes the need 
to grow the program. The 50-State transportation secretaries 
believe we need the multi-modal 6-year reauthorization bill 
valued at at least $300 billion. I agree.
    Spending at this level meets needs and generates millions 
of good paying jobs. This committee held 14 hearings last year 
with over 100 witnesses from 30 States and 60 organizations. 
The hearing record runs to over 1,000 pages. The hearings 
produced consensus on four priorities for the future program. 
These form my pillars for reauthorization.
    First, safety is the first priority. We have made real 
progress in highway safety over the last 10 years. According to 
the U.S. Department of Transportation, the rate of fatalities 
has declined from 1.9 to 1.5 deaths per million vehicle miles. 
But the number of fatalities has held steady at roughly 42,000 
per year. This number is just unacceptable. We need to expand 
the safety program with a particular focus on two-lane rural 
roads, where a disproportionate share of fatalities occur.
    My second pillar, and perhaps our most pressing national 
transportation need, is congestion. Today, over 60 percent of 
our population lives in large metropolitan areas. Congestion in 
these areas is bad and getting worse. The Texas Transportation 
Institute estimates that Americans in metro areas experience 
3.6 billion hours of delay annually. Our current efforts 
obviously are not working. We need to target congestion, 
improve access and enhance mobility.
    Third, we must continue our focus on asset management. We 
have made progress over the last 10 years improving the 
condition of our Nation's highways and bridges. To continue 
this positive trend, we must increase our investment in the 
system preservation.
    Freight and trade is my fourth pillar. Growth in the volume 
of goods moved in our country is rapidly overwhelming our 
ports, borders, corridors, intermodal terminals. The forecast 
for the future is demanding, daunting, with U.S. DOT projecting 
that the volume of rate will increase 70 percent by 2020. I 
want to see our Nation expand trade capacity through new 
partnerships, investments and market financing techniques.
    My proposal for reauthorization is simple. I want to 
produce a national bill, one that grows the program to keep 
pace with the national needs. I want to benefit all States. 
Let's create a new, flexible and focused program to address our 
national need. Let us focus on solving problems, be it freight 
or safety or congestion. Let us not focus on the mode, nor on 
the process, nor on the politics. Let us eliminate barriers, 
expand flexibility and free State and local officials to solve 
problems by applying the right solutions to their particular 
area.
    I look forward to working with you, Mr. Chairman, and with 
all our colleagues to get this job done. I appreciate the help 
we have received from the Administration and look forward to 
hearing from Ms. Peters today and working with the U.S. 
Department of Transportation. Thank you.
    Senator Bond. Thank you, Senator Jeffords.
    [The prepared statement of Senator Jeffords follows:]
        Statement of Hon. James M. Jeffords, U.S. Senator from 
                          the State of Vermont
    Thank you, Mr. Chairman and Senator Reid for convening this hearing 
on the President's proposed budget for surface transportation.
    Today's hearing marks the beginning of our committee's 
reauthorization process in the 108th Congress. I look forward to 
working with each of you, and with our Chairman, Senator Inhofe, on 
this important challenge. I also look forward to working with the 
Administration, with my good friend, the Secretary, Norman Mineta, and 
with Administrator Mary Peters, our witness for today's hearing. 
Welcome, Mary.
    To you, Norm, get well soon and get back in the arena. We will need 
your wise counsel in the months ahead.
    Now, to the matter at hand. I am ``underwhelmed'' by the 
Administration's budget proposal for transportation. It is inadequate; 
a step backward. It underfunds transportation at a time of national 
economic need--at a time America needs to create more jobs and invest 
in infrastructure.
    The President's budget is really about priorities and making 
choices--and I think the Administration is significantly under funding 
transportation while proposing stock dividend tax cuts to the tune of 
$390 billion.
    Senator Voinovich, and others, has raised serious concerns about 
how the dividend tax cut could negatively affect construction projects. 
I share those concerns, as do many on this committee.
    The Administration's proposal also lacks vision. When it comes to 
financing the program, two arguments should no longer be operative: 
``We've never done it this way before'' and ``We've always done it this 
way before.'' Instead, we need to seek new ways.
    The President has called for a national campaign to develop cars 
and trucks powered by hydrogen-based fuel cells. I support this. The 
President wants this Nation to break its dependence on foreign oil. I 
agree, and welcome the air quality benefits it will generate. But I 
recognize such a shift would have implications for the Highway Trust 
Fund. As we turn to new sources of energy, we move away from our 
traditional source of revenues.
    We need to consider bold new measures to finance our surface 
transportation program. Fuel taxes have not kept pace with program 
needs. We are in a transition, moving from reliance on fossil-fuel user 
fees--to deployment of a new system. We must start now to introduce the 
next generation of financing techniques for transportation. All options 
must be on the table to ensure that our program is adequately funded. 
Foreign and domestic corporations are now racing to perfect vehicles 
which may run on hydrogen, derived from water.
    In addition, right now thousands of electric cars are sold each 
month in this country. Toyota plans to sell 300,000 of these ``so-
called'' hybrid cars annually, by 2005. This will nearly double the gas 
mileage, and reduce Trust Fund receipts nearly in half, for those cars. 
I understand that these hydrogen, fuel cell or electric cars could be 
on the road in much greater numbers in 4 or 5 years--before our next T-
bill expires. Morgan Stanley predicts that these sales could grow to 15 
percent of all vehicle sales. While that is bad for the foreign oil 
cartels, it is great for American consumers.
    Our old funding formulas are becoming obsolete. We need an approach 
that distributes funds to solve transportation problems. Let's not 
waste time making arbitrary changes to arbitrary factors buried in 
outdated formulas. Let's get this job done, on time, by working 
together and addressing the nation's needs.
    I have a proposal for surface transportation renewal that will 
build on this principal. My proposal recognizes the need to grow the 
program. The 50 state transportation secretaries believe that we need a 
multimodal 6-year reauthorization bill valued at, at least, $300 
billion. I agree.
    Spending at this level meets needs, and generates millions of good 
paying jobs. This committee held 14 hearings last year, with over 100 
witnesses from 30 states and 60 organizations. The hearing record runs 
to over 1,000 pages. The hearings produced consensus on four priorities 
for the future program. These form my pillars for reauthorization.
    Safety is my first priority. We have made real progress on highway 
safety over the last 10 years. According to the U.S. Department of 
Transportation, the rate of fatalities has declined from 1.9 to 1.5 
deaths per million vehicle miles traveled. But the number of fatalities 
has held steady at roughly 42,000 per year. That number is 
unacceptable.
    We need to expand the safety program with a particular focus on 
two-lane rural roads, where a disproportionate share of fatalities 
occur.
    My second pillar, and perhaps our most pressing national 
transportation need, is congestion. Today, over 60 percent of our 
population lives in large metropolitan areas. Congestion in those areas 
is bad and getting worse. The Texas Transportation Institute estimates 
that Americans in metro areas experience 3.6 billion hours of delay 
annually. Our current efforts are not working. We need to target 
congestion, improve access and enhance mobility.
    Third, we must continue our focus on Asset Management. We have made 
progress over the last 10 years improving the condition of our nation's 
highways and bridges. To continue this positive trend, we must increase 
our investment in system preservation.
    ``Freight and Trade'' is my fourth pillar. Growth in the volume of 
goods moved in our country is rapidly overwhelming our ports, borders, 
corridors and Intermodal terminals. The forecast for future demand is 
daunting, with the U.S. DOT projecting that the volume of freight will 
increase 70 percent by 2020. I want to see our Nation expand freight 
capacity through new partnerships, investments and market financing 
techniques.
    My proposal for reauthorization, then, is simple. I want to produce 
a national bill, one that grows the program to keep pace with our 
national needs. I want to benefit all states. Let's create a new, 
flexible and focused program to address our nation's needs.
    Let us focus on solving problems, be it freight or safety or 
congestion. Let us not focus on the mode, nor on the process, nor on 
the politics. Let us eliminate barriers, expand flexibility, and free 
state and local officials to solve problems by applying the right 
solutions for their particular area.
    I look forward to working with you, Mr. Chairman, with Senators 
Inhofe and Reid, and with all of our colleagues to get this job done.
    I also appreciate the help we have received from the Administration 
and look forward to hearing from Ms. Peters today and working with U.S. 
DOT in the months ahead for a strong America.
    Thank you.

    Senator Bond. Chairman Inhofe.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman. First of all, let 
me say that Administrator Peters just did a miraculous job out 
in Oklahoma when we had our very tragic accident there on I-40. 
I'd like to make sure that my fellow members realize that it 
took about 3 days, I think, to get the initial funding in there 
to get the thing started. I was very familiar with this type of 
an accident, with the bridge coming down, because I witnessed 
the same thing happening in South Texas about a couple months 
before. You were able to get this done in much less time, far 
cheaper, you got everything routed around and got the funding. 
I want you to know that all of Oklahoma--not just Oklahoma, but 
that's a major east-west corridor across the country--we 
appreciate the fact that you did really a great job and I 
applaud you for it.
    Now, that's the good news. The bad news is I agree with 
these guys. I do regret that we have to begin by noting we 
still haven't received the reauthorization proposal for TEA-21. 
As a result, we don't have any way of really thoroughly 
assessing what this budget means and where we want to go until 
we have it. For I think both the reauthorization proposal and 
your budget become less relevant with each week that we don't 
have the reauthorization program.
    I am pleased to note that the request maintains a link 
between highway funding and user fees deposited into the 
Highway Trust Fund. That's an essential foundation for the 
reauthorization proposal. The proposal sets each year's funding 
level from a trust fund $1 billion above that year's estimated 
trust fund receipts. An additional $1 billion reflects the 
spending of the large cash balance in the Highway Trust Fund.
    We've been working on this now since, well, back in the 
first early years that I was in the House, some 15, 16 years 
ago. We are making progress on this. That's kind of the good 
news. But I agree with the Chairman and with Senator Jeffords 
that we can do a better job of getting this down and using 
these funds.
    I do appreciate the fact that you have come forth on the 
2\1/2\ cents from the tax on gasohol currently being deposited 
in the general fund. I kind of look at that, and always have 
said this, Mr. Chairman, it's more of a moral issue. People go 
up and they pay money, they expect that money is going to go to 
improving the highways and the bridges. I have to remind our 
Chairman here that I feel very badly that Missouri has the 
second worst bridges in America. But not nearly as badly as I 
feel that Oklahoma has the worst bridges in America. So we have 
that interest in getting these things done.
    I think it's inadequate, the amount of money that we're 
talking about. These low investment levels are problematic 
because highway needs today are staggering. The 2002 conditions 
and performance report published by this Administration 
estimates that the annual Federal investment in roads must 
increase by 17 percent each year to maintain the Nation's 
existing highway and bridge system. I think, you know, we're 
not anywhere near there, so what we have is not adequate.
    I do want to make a correction in a misquote of me. I was 
talking to the U.S. Chamber of Commerce, and they said that I 
was not supporting the hydrogen fuel cells. That isn't true at 
all. We were actually talking about an ambient air issue at 
that time. I do support the research that is there for these, 
and I want to make sure the record does reflect that.
    So we want to work with you on this. We want the 
reauthorization to come through, and we want something that we 
can get our hands into. We're going to work hard at this table 
to get as substantial an increase over what the President's 
budget was when it came in. It may sound funny for a 
conservative to say something like this, but conservatives 
really believe that Government has certain functions it must 
perform. Certainly infrastructure is way up there at the top. 
We've got to do a better job than we're doing right now.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Inhofe follows:]
       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    Thank you Madam Administrator for coming before us to testify on 
the President's 2004 budget request. This request contains many good 
features. Of course there are some aspects that I feel need attention. 
I am certain we will be able to work cooperatively to address my 
concerns.
    I regret that I must begin by noting that we still have not 
received your reauthorization proposal for TEA-21. As a result, we have 
no way of thoroughly assessing your budget request. It is simply a 
bunch of numbers with no policy behind them. I must also add that both 
your reauthorization proposal and your budget request become less 
relevant with each week that we do not have your reauthorization 
proposal.
    The House and Senate Budget Committees are well on their way 
drafting the Budget Resolution that will lay out the budgetary 
framework for reauthorization. One of my greatest concerns is that the 
President's budget request did not include firewalls for highways, but 
I understand that your reauthorization proposal will likely include 
them. I suggest that you move ahead on this immediately to help ensure 
firewalls are included in the Budget Resolution.
    With that said, I will turn to the specifics of the 
Administration's 2004 budget request for Federal-Aid Highways. This 
request is a reasonable starting point. I think it contains some very 
good ideas. But it is only a starting point.
    I'm very pleased to note that the request maintains the link 
between highway funding and the user fees deposited into the Highway 
Trust Fund. That is an essential foundation for any reauthorization 
proposal. The proposal sets each year's funding level from the trust 
fund $1 billion above that year's estimated trust fund receipts. The 
additional $1 billion reflects a spending of the large cash balance in 
the Highway Trust Fund that has accumulated from unspent highway user 
fees. Unfortunately, the cash balance in the trust fund remains too 
high under the President's proposal. We need more responsible cash 
management in light of the existing needs. I would like to see the cash 
balance spent down significantly below the $14.8 billion average under 
the President's request.
    I am also pleased that the President's budget request returned the 
2.5 cents from tax on gasohol currently deposited into the general fund 
back into the Highway Trust Fund. The gas tax is a true user fee and it 
simply does not make sense that any of it is deposited anywhere except 
the Highway Trust Fund. Cars burning fuel blended with ethanol take up 
the same amount of space and cause as much wear and tear on the roads 
as cars burning gasoline. They should pay the same amount into the 
Highway Trust Fund. Therefore, I will work to ensure that the subsidy 
on ethanol is paid for out of the general fund rather than the Highway 
Trust Fund. This would result in an additional $1.5 billion a year 
available for investment in highway infrastructure.
    As I said, this budget request is a starting point. Unfortunately, 
the investment levels are too low when compared to the system's needs. 
The 2004 request of $29.3 billion would be a $2.5 billion cut from 
2003. Highway investment would not get back to the 2003 level until 
2007 under the budget request. In fact, the 2009 requested funding 
level would be $2 billion less than if we simply grew the program at 
the rate of inflation. We need a highway funding level that will 
improve safety, congestion, and economic growth.
    These low investment levels are problematic because highway needs 
today are staggering. The 2002 Conditions and Performance Report 
published by this Administration estimates that the annual Federal 
investment in roads must increase by 17 percent simply to maintain the 
nation's existing highway and bridge system. Improving the system will 
require 65 percent more than is currently invested. TEA-21 was a great 
step forward in terms of improving our nation's highway safety and road 
conditions. We need to build upon this success, not take a step 
backward. It would be irresponsible to cut highway funding to such a 
great extent.
    The budget request does provide a couple of highlights of what we 
can expect to be included in the Administration's reauthorization 
proposal. From what I've seen so far, there are some very good ideas 
included. I look forward to hearing more detail on these policies.
    Thank you for your time and I look forward to working with you on 
reauthorizing TEA-21.

    Senator Bond. Thank you, Mr. Chairman, and I do have great 
sympathy for Oklahoma, knowing that you have the worst bridges 
in the Nation. I should have extended my sympathies to my 
Oklahoma friends for the humble Missouri basketball team last 
night beating the brains out of the third ranked Sooners.
    [Laughter.]
    Senator Bond. I meant to bring that up, but since we were 
talking about the close bonds of friendship and comradery, I 
thought I should extend that.
    Senator Inhofe. I only hope that they drive carefully over 
the bridges on the way home.
    [Laughter.]
    Senator Bond. They're going back to Oklahoma, and we don't 
fare so well in Soonerville.
    Senator Voinovich.

  OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, U.S. SENATOR 
                     FROM THE STATE OF OHIO

    Senator Voinovich. Thank you, Mr. Chairman, for conducting 
this hearing this morning.
    I'd like to welcome Administrator Peters to this hearing 
today. It's comforting to me as a former Governor to know that 
we have somebody in your job that's got experience on the State 
level and understands the great partnership that we have had 
over the years between your agency and the highways' directors 
throughout the United States.
    Mr. Chairman, as the infrastructure built in the 19th and 
20th century reaches the end of its useful life, we are now 
faced with the question of how to fill current requirements and 
make improvements to our infrastructure that will best serve 
the Nation in the 21st century. It's no secret that this Nation 
has an aging transportation infrastructure. According to FHWA's 
2002 conditions and performance report, the average annual 
investment level needed to make improvements to highways and 
bridges is projected to be $106.9 billion each year through 
2020. This level of investment is required for system expansion 
and does not include the cost of routine maintenance.
    This amount is 65 percent higher than the $64.6 billion of 
total capital investment spent by all levels of Government in 
2000. In Ohio, the costs to improve the State's infrastructure 
are high. For example, the Brent Spence Bridge that carries 
Interstate 75 across the Ohio River into Kentucky is in need of 
replacement within the next 10 years at a cost of $500 million. 
I've got a picture of this bridge. This is a double decker 
bridge that runs I-75 and I-71 across the Ohio. It was built in 
1963. It has too many cars going over it right now and trucks. 
It's going to have to be replaced for sure within 10 years, 
probably before that time. We're talking at least $500 million 
just to take care of that bridge.
    The average annual investment level necessary to maintain 
the current condition and performance of highways and bridges 
is projected to be $75 billion through 2020. Again, this level 
of investment does not include the cost of routine maintenance. 
This amount is 17.5 percent higher than capital spending in 
2000. If we had continued to ignore the upkeep and allow the 
deterioration of our infrastructure, we risk disruptions in 
commerce and reduce protection for public safety, health and 
environment. We forget that roads and bridges are so important 
to the economic vitality of our Nation, and particularly I 
understand that, where Ohio is located, we're within 500 miles 
of 60 percent of the population. If we don't have the bridges 
and roads, we are in deep trouble in terms of our economy.
    The purpose of this hearing is to determine whether the 
Administration's budget proposal and upcoming reauthorization 
will be sufficient to meet our needs. I am concerned that under 
the Administration's proposal, and I share my colleagues' 
concern, that funding will not even reach current levels until 
fiscal year 2007. That's unacceptable.
    In 1998, Congress recognized the importance of the Nation's 
transportation system with the enactment of TEA-21. It 
increased 40 percent Federal investment in highways and 
transit. Under that, Ohio received about 23 percent more in 
funding. As chairman of the National Governors Association, I 
was involved in negotiating TEA-21 and lobbied Congress to 
ensure that all Highway Trust Fund revenues were spent on 
transportation. We all lobbied for that.
    I also fought to even out Ohio funding, highway funding 
fluctuations and to assure a predictable flow of funding to the 
States. TEA-21 has achieved that goal because we have this up 
and down situation which made it almost impossible for us to 
move forward in a logical fashion with the funding for our 
responsibilities.
    However, more recently, as evidenced by last year's 
negative revenue aligned budget authority, RABA, of $4.4 
billion, we need a better way to smooth that out. That's 
another thing that we'll be interested in hearing you talk 
about today. I think that we need to also understand that the 
money that was in the 2003 budget, the appropriations that we 
just took care of, that we're borrowing some of the money right 
now to take care of funding that, because the money isn't in 
the Highway Trust Fund.
    I would like to make it very clear to you and anybody else 
that I am a fiscal hawk. My feeling is this, that we should not 
borrow money to take care of our highway needs, that we need to 
face up to them and if we need additional money, then we're 
going to have to raise that money in order to get the job done.
    TEA-21 also dedicated nearly all highway gas taxes to 
transportation funding and guarantees that the States will 
receive at least 90.5 percent. There are many of us that feel 
we're not getting our fair share as donors. We'd like to see 
that bumped up to 95 percent. Again, I understand that if we do 
that from a practical point of view, we're going to have to 
have more money to take care of guaranteeing those States that 
would be hurt by that taking place.
    Mr. Chairman, I have a longer statement here. I'm not going 
to read the rest of it, but just to say that I look forward to 
working with you. You have heavy responsibilities. I know it's 
difficult to be in the position you are, because you get the 
word from OMB and the rest of them, you've got to do certain 
things. But we really expect you to level with us in terms of 
what the needs are and then let us work on trying to convince 
OMB that we're going to need additional dollars to take care of 
the job that needs to be done.
    I appreciate the fact also that you're recommending that 
2.5 percent for ethanol be put in the Highway Trust Fund. 
That's very important, I've been trying to get that done for 3 
years around here. It means $50 million to the State of Ohio, 
and I thank you for that.
    Senator Bond. Thank you very much, Senator Voinovich. Your 
full statement will be included in the record. I appreciate 
your submitting that. When the questions come around, I will 
ask that we put on the lights so everybody has a shot at the 5 
minutes. I appreciate also your kind comments and your previous 
lobbying support for the Bond-Chafee proposal in TEA-21. For my 
colleagues' information, we will be going on my best guess at 
what the early bird rule was, and the next to come in at the 
opening of the hearing was Senator Thomas.
    [The prepared statement of Senator Voinovich follows:]
     Statement of Hon. George V. Voinovich, U.S. Senator from the 
                             State of Ohio
    Thank you, Mr. Chairman, for conducting this hearing today on the 
Federal Highway Administration's (FHWA) fiscal year 2004 budget 
request.
    Mr. Chairman, as the infrastructure built in the 19th and 20th 
Centuries reaches the end of its useful life, we are now faced with the 
question of how to fulfill current requirements and make improvements 
to our infrastructure that will best serve the Nation in the 21st 
Century.
    It is no secret that this Nation has an aging transportation 
infrastructure. According to FHWA's 2002 Conditions and Performance 
Report, the average annual investment level needed to make improvements 
to highways and bridges is projected to be $106.9 billion through 2020. 
This level of investment is required for system expansion and does not 
include the costs of routine maintenance. This amount is 65.3 percent 
higher than the $64.6 billion of total capital investments spent by all 
levels of government in 2000.
    In Ohio, the costs to improve the state's infrastructure are high. 
For example, the Brent Spence Bridge that carries Interstate 75 across 
the Ohio River into Kentucky is in need of replacement within the next 
10 years at a cost of about $500 million.
    The average annual investment level necessary to maintain the 
current condition and performance of highways and bridges is projected 
to be $75.9 billion through 2020. Again, this level of investment does 
not include the costs of routine maintenance. This amount is 17.5 
percent higher than capital spending in 2000.
    If we continue to ignore the upkeep, and allow the deterioration of 
our infrastructure, we risk disruptions in commerce and reduced 
protection for public safety, health, and the environment. In my view, 
it is the responsibility of Congress to ensure that funding levels are 
adequate and efficiently allocated to our nation's priority needs.
    The purpose of this hearing is to determine whether the 
Administration's budget proposal and upcoming reauthorization proposal 
will be sufficient to meet the nation's transportation needs. I am 
concerned that under the Administration's proposal, highway funding 
would not even reach current spending levels until fiscal year 2007.
    In 1998 Congress recognized the importance of the nation's 
transportation system through the enactment of the 6-year 
Transportation Equity Act for the 21st Century (TEA-21). TEA-21 
increased by nearly 40 percent Federal investment in highways and 
transit. Under TEA-21, Ohio received a 23 percent increase in 
transportation funding.
    As Chairman of the National Governors Association, I was involved 
in negotiating TEA-21 and lobbied Congress to ensure that all Highway 
Trust Fund revenues were spent on transportation. I also fought to even 
out highway funding fluctuations and assure a predictable flow of 
funding to the states. TEA-21 achieved this goal with record, 
guaranteed levels of funding.
    However, more recently, as evidenced by last year's negative 
Revenue Aligned Budget Authority (RABA) calculation of $4.4 billion, we 
need to find a better way to smooth out the effects of fluctuating 
trust fund receipts for the long-term without adding to the Federal 
budget deficit.
    TEA-21 also dedicated nearly all highway gas taxes to 
transportation funding and guarantees that states will receive at least 
90.5 percent of their share of their contribution to the highway 
account of the Highway Trust Fund. One of my top priorities for TEA-21 
reauthorization is to increase Ohio's minimum share to at least 95 
percent. This increase in Ohio's rate of return would generate an 
additional $140 million in transportation revenues for the State of 
Ohio, realizing that the states that have to give up that funding will 
have to be taken care of.
    While TEA-21 has enabled states and localities to improve the 
condition of deteriorating and unsafe highways and to increase capacity 
and performance, the system is still aging, and in need of additional 
investment.
    As a member of this subcommittee--and its former chairman--I am 
eager to work on the reauthorization of the surface transportation 
program. I understand that certain groups are talking about funding 
levels of up to $60 billion a year, which is supported by the 
Performance and Conditions Report I mentioned earlier.
    The short- and long-term viability of the Highway Trust Fund to 
meet our transportation needs is an issue that will be discussed in the 
coming months. In the short-term, we will have to determine the annual 
funding level the Highway Trust Fund can sustain and still meet its 
obligations. With our country's finances already in the red, I do not 
think we can expect that additional resources outside the Highway Trust 
Fund will be available for highway projects.
    In fact, in fiscal year 2002, we suffered a budget deficit of $317 
billion. In other words, we spent the entire $160 billion Social 
Security surplus and then had to go out into the private markets and 
borrow an additional $158 billion.
    According to OMB's numbers, even though we kept discretionary 
spending down in fiscal year 2003 and the President's fiscal year 2004 
budget keeps discretionary spending to an increase of 4 percent, we 
will still suffer budget deficits of close to half a trillion dollars 
($468 billion and $482 billion, respectively) in each of fiscal years 
2003 and 2004. This does not include what would happen if there is a 
war.
    We must plan for the future based on the principle that the highway 
program is a fully user-fee based system that pays its own way. I will 
not support borrowing more money for highways and have my children and 
grandchildren pay for it. I believe everyone on this subcommittee 
should support that position.
    I am pleased the Administration's budget request proposes that all 
revenue from gasohol taxes be deposited into the Highway Trust Fund 
rather than the General Fund of the Treasury, something many of my 
colleagues have asked for these last few years. This fix would provide 
Ohio with an additional $50 million a year in highway funding. I urge 
my colleagues to support the Administration's proposal.
    Mr. Chairman, another of my priorities for reauthorization is to 
enact an environmental streamlining provision which will actually 
expedite the project delivery process. I am disappointed with the 
implementation of the environmental streamlining provisions included in 
TEA-21, and I regret that we may have wasted an opportunity to realize 
the benefits of the expedited process that we envisioned 5 years ago.
    In addition, as Chairman of the Clean Air Subcommittee, I will be 
looking closely at the effectiveness of conformity and the Congestion 
Mitigation and Air Quality Program (CMAQ).
    Finally, I would like to thank Administrator Peters for testifying 
this morning on her agency's budget request for fiscal year 2004. I 
hope the Administrator will also share with the committee the 
highlights of the Administration's reauthorization proposal and when 
that proposal might be sent to Congress for its consideration.
    Again, thank you, Mr. Chairman, for holding this hearing. I look 
forward to working with you in the coming weeks and months on this 
reauthorization.

    Senator Bond. Senator Thomas.

 OPENING STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR FROM THE 
                        STATE OF WYOMING

    Senator Thomas. Thank you, Mr. Chairman. I appreciate it. I 
am not a member of this subcommittee, but I was a member when 
this TEA-21 was passed, so I'm very much interested in it. 
Certainly it's an issue that our State is very much interested 
in. It has an impact over the whole country, and particularly, 
many times, the States that have relatively small populations 
but lots of miles, interstate highways and so on.
    So I just agree with the members here this morning, this 
money has been collected for this purpose, it's there, we ought 
to have it out. Our director of transportation indicated the 
other day that just keeping up with the environmental 
streamlining of what needs to be done in the highways is a 10 
percent increase. So that's very much of an interest to us. 
Certainly this is an economic matter, not only good highways, 
but I can't think of a quicker way to get money into the 
economy than this way.
    So I'm just here to say I support what we're doing. I want 
to work with you on this. I think it's one of the most 
important issues we have before us. Thank you, Mr. Chairman.
    Senator Bond. Thank you very much, Senator. Now, Senator 
Boxer.

OPENING STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Boxer. Thank you so much, Mr. Chairman.
    I agree with Senator Thomas that when we're talking about 
stimulating the economy and doing something we need to do, this 
is it. So I'm so appreciative that you've held this hearing. I 
ask unanimous consent that my full statement be placed in the 
record.
    Senator Bond. Without objection.
    Senator Boxer. I'd like to put this on the record using the 
5-minute rule. TEA-21 authorized $31.8 billion for fiscal year 
2003, yet the Administration's budget does not ask for that 
level of funding until 2007. So we're talking about a gap here. 
I haven't given it a name yet, it's a highway gap, I guess 
you'd say. It means less money for our States in those years.
    I wanted to show you a chart about congestion in my State. 
This is how many hours are lost, Mr. Chairman, in Los Angeles, 
this is per year, 136 hours per year due to congestion, San 
Francisco-Oakland 92 hours, San Jose 74 hours, what we call our 
Inland Empire, some of you have been there, I think, east of 
Los Angeles, 64 hours, and San Diego, 51 hours. So we are 
really talking about a tremendous loss.
    For example, if you look at the families of the Los 
Angeles, parents of a Los Angeles family, that's 136 hours they 
could be spending time with their kids or volunteering at a 
neighborhood charity or many other worthwhile endeavors or 
frankly, something they may want to do just to help themselves, 
take a class, read a book, relax. The only good that comes out 
of it, I guess you might say the oil companies make some 
profit, because they're burning oil. The fuel, the fuel that's 
lost is enormous in those periods.
    But I also wanted to make the point that we are trying our 
best to reduce congestion. We have a lot of Californians that 
are using other forms of transportation. Public transit carries 
over 1.2 billion passengers a year. I would say that when we 
realize that our population is going to go up to 50 million 
people from 35 million in the year 2020, we have a lot of work 
to do to keep people going in transit, but also to keep up with 
the highway needs.
    I'll also make a quick point that 40 percent of our 
Nation's imported goods come through California ports. I know 
many of you have visited those ports. Again, there's terrible 
local congestion around those ports. We really need to look at 
those ports and move the goods through. Because what happens 
is, Mr. Chairman, it affects people in your State and all over 
when they have to add on more costs and it means more expensive 
goods to our people.
    So we have issues and I know that our Chair is very much in 
favor of doing the most that we can. I want to add my voice to 
that and do whatever I can to help get a good bill through. I 
know, Ms. Peters, that you are going to do your best within the 
constraints you are given. But I hope that you will become an 
advocate. Because when we authorized TEA-21, it was after 
careful consideration, and by the way, quite bipartisan, one of 
the areas where it's quite bipartisan. We can't have a 
circumstance where we're not going to get the funding we need 
today until 2007. I hope we can work together to do better.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Senator Boxer follows:]
          Statement of Hon. Barbara Boxer, U.S. Senator from 
                        the State of California
    Mr. Chairman, good morning. I want to thank you for holding this 
hearing today.
    With TEA-21 expiring this year, the President's Federal Highway 
Administration fiscal year 04 budget is a glimpse into the 
Administration's reauthorization proposal, which the Administration 
says is on its way. But, if this budget accurately reflects the TEA-21 
proposal, it is not even close to adequate.
    TEA-21 authorized $31.8 billion for fiscal year 03. Yet, the 
Administration's budget does not ask for that level of funding until 
fiscal year 2007. For the 4 years in between, it will be less money for 
our states.
    For my state of California, this funding is desperately needed. Our 
economy and our transportation system need the help.
    According to the Texas Transportation Institute, Los Angeles and 
the San Francisco-Oakland region are ranked No. 1 and 2 for the worst 
roadway congestion in this country. California has two more cities in 
the top five with San Jose ranked four and San Diego ranked five. The 
Inland Empire of San Bernardino and Riverside Counties is ranked 12 and 
Sacramento is ranked 13.
    What does this congestion translate to? [Indicate table--Shown at 
end of statement] Delays--in the Los Angeles area: 136 hours per year, 
on average per driver, in peak hours. San Francisco-Oakland drivers put 
up with 92 hours of delays, and San Jose drivers endure 74 hours of 
delays. Inland Empire drivers are delayed by 64 hours, and San Diego 
drivers are delayed by 51 hours a year.
    What it really means--outside of the aggravation that Californians 
face sitting for these long hours in traffic is that in Los Angeles 
parents don't get to spend an additional 136 hours with their children.
    Congestion is expensive. The total cost of traffic congestion in 
California was $21.7 billion in lost time and fuel in 2000.
    Congestion will not get better over time. California's population 
is expected to increase from 35 million people today to 50 million 
people by 2020. We need to make great strides in our transportation 
system.
    Californians are trying to reduce congestion. More Californians are 
using alternative forms of transportation. Public transit carries over 
1.2 billion passengers a year in California.
    Transit ridership is up in California. The number of miles traveled 
annually by transit passengers grew by 20 percent between 1997 and 
2001. The number of annual passenger trips was up 14 percent. In the 
San Francisco Bay Bridge corridor, 38 percent of all trips are on 
transit. Thirty percent of all trips into central Los Angeles are on 
transit.
    At the same time, we need to get them assistance to relieve 
congestion. But, our congestion also stems from goods movement, which 
is not just a California problem.
    Forty percent of all the nation's imported goods come through 
California ports. Thirty-five percent enter through the ports of LA--
Long Beach. Many of the goods that are shipped by truck leave Los 
Angeles and go through Riverside and San Bernardino counties. This 
causes terrible local congestion. At the same time, this impacts the 
rest of the country by adding to the price of all of the goods that 
come from the port.
    In TEA-21 reauthorization, we need to have a substantial program to 
solve the grade crossing problem and the number of trucks that drive 
from our ports through the state to the rest of the country.
    Mr. Chairman, the Administration's budget shows us that we, as a 
subcommittee, have a lot of work this year.
    Thank you.
                                 ______
                                 
          The Number of Hours People Waste Sitting in Traffic*
---------------------------------------------------------------------------
    * Per person over a year during peak times. Source: Texas 
Transportation Institute.
---------------------------------------------------------------------------
    Los Angeles: 136
    San Francisco-Oakland: 92
    San Jose: 74
    Inland Empire (San Bernardino/Riverside Counties): 64
    San Diego: 51

    Senator Bond. Thank you very much, Senator Boxer.
    With that, finally, Ms. Peters, we're ready for your 
presentation. I know it's not a great introduction, but we do 
appreciate your being here and we do look forward to working 
with you.

   STATEMENT OF HON. MARY E. PETERS, ADMINISTRATOR, FEDERAL 
                     HIGHWAY ADMINISTRATION

    Ms. Peters. Thank you, Mr. Chairman, members of the 
subcommittee. Thank you so much for the opportunity to testify 
today in support of President Bush's fiscal year 2004 budget 
request for the Federal Highway Administration. It's a budget 
that provides the foundation for the Administration's 
reauthorization proposal for surface transportation programs.
    I will briefly summarize my written statement and ask that 
you enter the full written statement in the record.
    Senator Bond. Without objection, it will be so entered.
    Ms. Peters. Thank you, Senator.
    Funding levels in the 2004 budget reflect the difficult 
choices that are facing the Administration as President Bush 
seeks to balance domestic needs and international 
responsibilities, as well as homeland security. The requested 
$29.3 billion obligation limitation establishes a prudent basis 
for a sustainable highway program, provides for responsible 
program increases over a 6-year reauthorization period, and 
continues the traditional linkage of highway spending and 
Highway Trust Fund revenues. The President's 6-year 
reauthorization proposal outlined in the 2004 budget provides 
an overall increase of 19 percent above the 6 years of record 
level investment under TEA-21.
    In developing the proposal and the budget, Secretary Mineta 
urged all of us at the Department to focus on one profoundly 
important goal: saving lives. As was mentioned earlier, more 
than 42,000 people are killed annually in traffic accidents. 
That's 115 people each day. Another sad fact about this is that 
more than 30 of those people who die each day are under the age 
of 25.
    We have worked very closely with the National Highway 
Traffic Safety Administration, our Motor Carrier Administration 
and the Rail Administration to design a Federal safety program 
that is comprehensive and complementary and that can build on 
existing State programs. The President's budget would make a 
meaningful investment in this comprehensive safety program. We 
will work with State and local authorities to invest the 
Federal dollars where they have determined the greater needs 
are, and where there is the greatest potential for reducing 
crashes.
    To improve both safety and mobility, we will be working 
with the States for more efficient project delivery, improved 
system performance and increased program accountability. By 
simplifying and consolidating programs and through increased 
flexibility for the States, we will provide transportation 
programs that operate more efficiently and are easier to 
implement.
    The President's budget also proposes a new program, $1 
billion each year for the Infrastructure Performance and 
Maintenance Program. This program will quickly address 
congestion, traffic bottlenecks and pavement conditions. We 
build on TEA-21 and maintain guaranteed funding, budgetary 
firewalls and RABA adjustments to link highway spending to 
Highway Trust Fund receipts. We do anticipate in our 
reauthorization proposal proposing a modification to RABA to 
smooth out the peaks and valleys, as was mentioned earlier.
    State and local governments need the certainty and the 
predictability of transportation funding that these mechanisms 
will provide and allow them to build long range programs. To 
increase revenues more than $600 million a year, the budget 
proposes that all gasohol taxes be deposited into the Highway 
Trust Fund. An additional $1 billion per year in obligation 
authority, above the estimated receipts of the Trust Fund, 
would also be made available to the program I mentioned 
earlier. This would set spending at a level that keeps the 
Highway Trust Fund balance relatively constant during the 
reauthorization period and sufficient to meet program outlays. 
We believe this is a prudent course for this Nation at this 
time.
    We will continue to encourage States to employ innovative 
financing tools to better leverage the Federal funds and 
encourage more private sector investment in infrastructure. 
Innovative financing has proven especially useful to advance 
intermodal projects that are so important for the efficient 
movement of freight.
    Stewardship requires that we ensure the Nation's resources 
are used wisely to solve our Nation's transportation problems. 
FHWA will continue to work with States to better integrate 
planning, environmental review, and project delivery, and to 
emphasize program level and major project oversight and 
accountability. We will continue to focus on streamlining 
delivery of transportation projects to improve safety and ease 
congestion, balancing that with the need to improve communities 
and protect the environment.
    Within today's constrained budget environment, President 
Bush's 2004 budget request makes a substantial commitment to 
ensuring a safe and efficient transportation system, and 
provides the basis for a program that can be sustained and 
expanded over the 6-year authorizing period.
    Mr. Chairman and members, thank you so much for the 
opportunity to testify before you today, and I would be pleased 
to answer any questions you may have.
    Senator Bond. Thank you very much, Ms. Peters.
    We've been joined by the ranking member of the 
subcommittee, who was out partying late last night at the big 
Capitol sleepover. Senator Reid, you have many important 
responsibilities. We appreciate your being here.
    Do you have an opening statement that you wish to----

  OPENING STATEMENT OF HON. HARRY REID, U.S. SENATOR FROM THE 
                        STATE OF NEVADA

    Senator Reid. I do, Mr. Chairman, but I don't think it's 
fair for me to come in late. I appreciate the opportunity to 
see again our friend from Arizona. But indicate, my only point 
is, we need more money. You bring a tough message here for us. 
I know you've got a job to do with the Administration, as much 
you can do about it. But we really need more money, and you 
have to take this message back. This is not a partisan issue. 
This is an issue that we all feel strongly about. Anything you 
can do to help us in that regard, you should.
    I ask unanimous consent that my statement be made part of 
the record.
    Senator Bond. Without objection, thank you very much, 
Senator Reid.
    [The prepared statement of Senator Reid follows:]
  Statement of Hon. Harry Reid, U.S. Senator from the State of Nevada
    Good morning. I want to extend a special welcome to Administrator 
Peters and thank her for joining us this morning.
    I also want to extend her my sympathies for once again being sent 
here to defend a budget proposal that grossly underfunds the nation's 
surface transportation needs.
    One year ago, we sat in this same room to discuss the President's 
proposed 27 percent cut in fiscal year 2003 highway funding.
    Today we are here to discuss yet another proposed cut in highway 
funding for fiscal year 2004, the first year in the Administration's 6-
year reauthorization proposal. This is unacceptable.
    Last year the Administration hid behind RABA, this year there is no 
excuse.
    The Administration proposes a fiscal year 2004 funding level of 
$29.3 billion. This is over $2 billion below the fiscal year 2003 
enacted level.
    Despite the Administration's rhetoric, this budget request does not 
provide an adequate foundation for any reauthorization proposal of the 
nation's surface transportation program.
    Unfortunately, the proposal does not improve in the out years. 
Under the current Administration proposal, the highway program funding 
level would not reach the current fiscal year's program level until 
2007, and then only with a modest increase.
    The President's proposed funding level for fiscal year 2009, the 
last year of the reauthorization proposal, is $34 billion.
    The most recent Federal Highway Administration Conditions and 
Performance report estimates Federal investment necessary just to 
maintain our highway infrastructure will be at least $34 billion per 
year. Given that report, I think any responsible, adequate 
reauthorization proposal should start with a fiscal year 2004 funding 
level of at least $34 billion.
    I have heard countless times that this budget represents a 
balancing of priorities. Sadly, it appears this President has shifted 
the balance in favor of tax cuts we cannot afford and to the detriment 
of highways and other domestic priorities. The American people deserve 
better.
    I cannot understand, given the current state of our economy, why we 
would want to cut highway spending. For every $1 billion of 
infrastructure spending we create over 42,000 well-paid private sector 
jobs.
    Administrator Peters, I applaud your efforts to place additional 
emphasis on the national problems of safety and congestion. While the 
rate of roadway fatalities continues to decrease, we are still losing 
far too many lives on our nation's roadways, a disproportionate share 
of those fatalities on rural roads.
    In addition to the personal tragedy associated with traffic 
accidents, accidents cost an estimated $137 billion per year in 
property loses, loses in market productivity, and medical costs. We can 
and must do better.
    Additionally, congestion continues to plague our nation's urban 
centers. The Texas Transportation Institute estimates this year 
residents in the top 75 metropolitan areas will lose more than 3.6 
billion hours due to traffic congestion and $67 billion in wasted time 
and fuel.
    In Nevada, the fastest growing state in the union, we are working 
to address congestion problems in innovative ways.
    In conclusion, I look forward to working with Senator Bond and my 
other EPW colleagues and with you, Administrator Peters, to craft a 
reauthorization proposal that adequately maintains and improves our 
nation's surface transportation system.
    I look forward to hearing your testimony.

    Senator Bond. Administrator Peters, when can we expect to 
get the Administration's proposal for reauthorization?
    Ms. Peters. Mr. Chairman, we are working very hard to get 
that proposal cleared through the administrative review 
process, and hope to get it to you very soon.
    Senator Bond. Thank you. We've heard various figures from 
FHWA regarding the Highway Trust Fund balance estimates. At the 
time of the budget release, FHWA assumed $17.1 billion in 
balances at the end of the next reauthorization period in 2009. 
We're now hearing a revised estimate of $14.5 billion. Can you 
tell us what the actual number is, why it keeps changing, and 
also why there is a minimum balance? There's an $8 billion 
balance required under TEA-21. From the people who have worked 
on it, they tell me that they don't think that you need to have 
that much of a balance. So I'd like to know what you project 
the balance to be, and what is the minimum you think it must 
be.
    Ms. Peters. I will address those questions, and thank you. 
At the end of fiscal year 2002, the cash balance in the highway 
account of the Highway Trust Fund was just over $16 billion. If 
we look at the proposed period of reauthorization and what the 
budget would be, what the balance would be, rather, under the 
President's fiscal year 2004 budget, the highway account of the 
Highway Trust Fund is anticipated to drop from approximately 
$16 million at the onset of the period to $14 million at the 
end of 2009.
    Senator Bond. You're saying billion, aren't you, with a B?
    Ms. Peters. I'm sorry, yes.
    Senator Bond. We're in Washington, here.
    [Laughter.]
    Senator Bond. If you're talking millions, nobody pays 
attention.
    Ms. Peters. I'm sorry, sir.
    Senator Bond. That's all right. Now everybody's listening.
    Ms. Peters. In terms of a minimum balance in the account, 
sir, we believe that approximately $8 billion is an appropriate 
balance in the account. I have to tell you that that is not 
based on science, it's based on a level where it reflects 
approximately one quarter of a year's deposits into the Highway 
Trust Fund. It's a figure that was arrived at in the past 
working with the committees in Congress.
    Senator Bond. I talked with a man who apparently came up 
with that SWAG figure, and his latest guess is that it's about 
$3 billion. We need to work with you on that. Why do you 
project the balance going down to $14 billion in 2009?
    Ms. Peters. Actually, we believe if we take into account 
the fiscal year 2003 appropriations level, the level that was 
just passed as you all mentioned earlier, the highway account 
balance will actually drop to about $10 billion by the year 
2009. The $14 billion figure was based on the President's 
budget proposal prior to the passage of the 2003 Budget Act.
    We believe that will happen because we will spend down the 
balance, not only through the program that I outlined just a 
few moments ago, the additional $1 billion a year, but also the 
inflation rate of the account and expenditures out of the 
account during that period of time.
    Senator Bond. We'll work with you on that.
    My understanding that the conditions and performance levels 
cited in the report as a benchmark are based on fiscal year 
2000 data and that the total investment levels are expressed in 
2000 year dollars. Is that correct?
    Ms. Peters. That's correct, sir.
    Senator Bond. It's one of my understandings also the key 
assumption is that the rate of traffic growth in the country 
will actually decrease over the next 6 years, growing at a rate 
of only 2.01 percent, rather than the range of 2.5 percent, 
which has been the case. Is that correct?
    Ms. Peters. Sir, I want to look at my staff to make sure 
I'm getting the numbers exactly accurate. That is correct.
    We have seen much more substantial growth in the past few 
years. We see that leveling off a bit in the future, not 
decreasing, but leveling off.
    Senator Bond. If the committee were to assume that annual 
inflation will run at the next 6 years at the level suggested 
in the President's budget, apply those increases plus actual 
inflation increases since 2000 to the investment requirement 
number cited in the condition and performance report, if we 
were to assume the Federal share of capital investment remains 
at about 43 percent each year of the reauthorization, I believe 
you'd come up with a Federal capital investment requirement for 
highways and bridges that must average about $45 billion per 
year over the next 6 years just to maintain the safety we had 
in year 2000, the traffic congestion and fiscal conditions of 
the system. That wouldn't do anything to get rid of the 
backlog. Is that a reasonable ball park number based on those 
assumptions?
    Ms. Peters. It is, sir.
    Senator Bond. Thank you very much. That answers my 
questions, and I want to jump out of order and ask the ranking 
member on the committee, since we didn't hear his opening 
statements, to let him have first round of questions.
    Senator Reid. Thank you, Mr. Chairman. I don't want to butt 
in here.
    One question I'd like you to comment on, it's somewhat 
involving Arizona and Nevada, but what do you see as the future 
of the Boulder Dam, I'm sorry, the new bridge over the river, 
the Colorado River?
    Ms. Peters. Sir, again, we do see that being built. I 
certainly share the goal of getting that built. In fact, we're 
meeting later today with officials from Nevada, the DOT and 
Arizona DOT to talk about the provisions that were in the 2003 
Appropriations Act and to look at some of the financing 
mechanisms that might be available to that bridge. It is an 
important link.
    Senator Reid. I think, Madam Administrator, this is an 
example of how we're going to have to look at new ways of 
financing projects. This is a huge project. This was authorized 
when Bob Broadbent was head of the Bureau of Reclamation in the 
early 1980's, and we still haven't done anything about it.
    As you know, traffic backs up there for miles and miles. 
It's not a problem just involving Arizona and Nevada. It's a 
problem that involves the whole country. Because commerce is 
stopped. I do believe that we should use this as a model to see 
what we can do to come up with financing that is not anything 
that is going to cost the Government any money, but a way of 
getting projects built and keep budget constraints as they 
should be.
    I know that there's Nevada people back here, and I hope 
that you work with them and the Arizona officials to come up 
with a program there. Just for those of you who simply are not 
aware of what I'm talking about, the dam, Boulder Hoover Dam 
was built, as we know, and completed in the early 1930's. The 
bridge over the river comes right across the top of the dam. It 
is terribly prone to a terrorism attack, an accident. With 9-
11, truck and bus traffic has been stopped over this and it has 
caused huge amounts of additional cost to haul commerce now in 
that part of the country.
    In addition to that, since the early 1930's, people are 
traveling a lot more. I'm not joking when I say traffic can be 
backed up for 15 or 20 miles trying to get over that river. So 
we have authorized a new bridge to go over the river. We have 
appropriated a little bit of money, but keep in mind that the 
burdens upon Arizona and Nevada are tremendous, because this is 
very, very difficult, mountain terrain to get to the river.
    The States of Arizona and Nevada have been burdened with 
trying to figure out a way to pay for their entrances to the 
bridge. The bridge alone is going to cost $300 million to $400 
million, just the bridge itself over the river. It's a problem 
that we've had for decades there, and I hope that with your 
experience in Arizona, you'll be able to do some good things 
there.
    Mr. Chairman, I came late and I don't want to take other 
people's time. I have a number of important questions. I would 
ask permission to submit these for the record and have the 
Administrator answer these within the next 2 weeks.
    Senator Bond. We'll be happy to submit them, and thank you 
very much, Senator Reid. I'm looking forward to working with 
you on this. I know you have heavy responsibilities on the 
floor. But we'll find the time when we can work on this.
    Now, the one who is also the earliest bird, the Senator 
from Ohio. He has a particular smile. Did you just get some 
good news, Senator?
    Senator Voinovich. Yes, I just found out about 5 minutes 
ago that I have a new granddaughter.
    Senator Bond. Congratulations.
    [Applause.]
    Senator Voinovich. No name yet----
    Senator Boxer. I thought the name was Kit.
    [Laughter.]
    Senator Voinovich. Eight pounds, 13 ounces. Big baby.
    Senator Bond. Mom doing well?
    Senator Voinovich. Yes.
    Senator Bond. Congratulations.
    Senator Voinovich. I'd like to start out with kind of a 
provincial question. Bring that picture back here. First of 
all, I'd like to thank the Department for the wonderful 
cooperation that we've had on the bridge over the Maumee River.
    Senator Reid. You've been hanging around Kent Conrad too 
long. Visual aids.
    Senator Voinovich. I would like to request that you convene 
a meeting fairly soon with the two Senators from Ohio and the 
two Senators from Kentucky to talk about some common sense way 
that we can approach this challenge. Because this bridge is not 
only important to Kentucky and Ohio, but it's a major bridge on 
I-75, 71.
    If we don't do this thing right, down the road we're going 
to have some very, very severe problems. I've always found that 
if you get started early enough and develop a plan that you'll 
be able to be successful. So I would urge you to do that.
    Ms. Peters. We will do so.
    Senator Voinovich. Thank you.
    Second of all, I'm not going to ask you to explain this 
here, because it would take you probably, or maybe you couldn't 
explain it. But all of us are puzzled about how our estimates 
of what was in the Highway Trust Funds were so far off. Then we 
got the news, I did from Mitch Daniels about the fact that the 
money wasn't there. I'd like to have somebody explain what 
happened and how you intend to remedy the situation, so we 
don't end up with the same kind of situation that we had last 
year.
    Second of all, and I will ask this question, I want to 
compare apples to apples and oranges to oranges. You're talking 
about an increase in funding. The issue is, is it increase in 
funding over what TEA-21 provided or is it an increase, and 
what does it look like in terms of the appropriation that we 
had, the recent appropriation that we passed, I think it was 31 
point something or the other. My gut is that your percentage 
increase is over what TEA-21 provided, rather than this most 
recent appropriation that we had in the Omnibus Appropriations 
bill. Could you comment on that?
    Ms. Peters. Senator, that is accurate. The comparison I 
made was with what TEA-21 provided, over the life of TEA-21, 
versus what's been proposed in the President's budget. As to 
the balance in the Highway Trust Fund, sir, we would be happy 
to work with you and your staff and provide more documentation, 
more background in terms of what the actual balance is in the 
Trust Fund, both currently and what it's projected to be.
    But, I do assure you that the Administration's proposal 
proposes that every dollar that goes into the highway account 
of the Highway Trust Fund----
    Senator Voinovich. I understand that. But the fact is that 
the increase is, isn't it over the TEA-21 number rather than 
the last number that we passed in the Omnibus Appropriations 
bill?
    Ms. Peters. That's correct.
    Senator Voinovich. So if you take that bill, it's a lot 
less of an increase than what you talk about here in your 
testimony.
    Ms. Peters. Again, we were looking at the guaranteed level 
of funding under TEA-21 with the RABA adjustment. So that's 
what we were looking at, versus the most recent budget. Yes, 
sir.
    Senator Voinovich. Isn't it true, again, I have a tough 
time figuring out what the balance, in the trust fund, there 
isn't any money in the trust fund. Isn't that correct?
    Ms. Peters. There are obligations against the money.
    Senator Voinovich. Obligations. But there is no money, and 
there is no such thing as, there's no money in the trust fund. 
It's a piece of paper that says we have this amount of money in 
the trust fund. But there's no money in it. If we were going to 
take the money out of it right now to do anything, it's money 
that we would have to borrow. Because we're in a deficit 
position in terms of the Federal budget. Is that correct?
    Ms. Peters. Correct.
    Senator Voinovich. I think that to be realistic, you know 
and so do the people that work with you closely, that we don't 
have enough money. I'd like to, and if you feel comfortable, 
have you raised the issue that, with the burden that we have, I 
gave you the statistics, $109 billion a year and $79 billion 
for maintenance that we're just so far off from what we can do 
that we do need more money.
    How do you answer that question? I know you're in a 
difficult position. But let's get real. We have this terrific 
challenge and if you really look at this, it's really not even 
in the real world. How are you going to deal with that?
    Ms. Peters. Senator, I reconcile it by saying this, that we 
do have a Highway Trust Fund and we do have some very important 
legislation that has been enacted in the past. The President's 
bill, the President's proposal, rather, budget proposal, 
adheres to the principle that moneys that go into the Highway 
Trust Fund, particularly into the highway account of the 
Highway Trust Fund, should then go back out and be spent. So, 
it's all determined, then, by how much money we expect will go 
into that account over the life of the next authorization 
period and what we can afford to spend from that account, using 
current funding mechanisms and with the addition, as I 
mentioned, of the----
    Senator Voinovich. I understand that. But you know and I 
know and everyone at this table knows that that's not enough 
money. The Administration says, we wouldn't support any 
increase in revenue. Now that's again not realistic. In 
addition to that, we have numerous construction jobs all over 
this country today. I hope this economy gets better, but we may 
be back to a public works program. I'm taking too much of your 
time. But has anybody ever sat down and figured, if you pumped 
in another $10 billion or so into all these projects that are 
all over the country the impact that it would have on the 
economy and jobs? Has anybody asked you that question ever?
    Ms. Peters. Sir, no one has----
    Senator Bond. Senator, we'll take that as a rhetorical 
question. I think that was a powerful statement. Let me turn to 
Senator Jeffords. Thank you very much, Senator Voinovich.
    Senator Jeffords. I commend the Administration on its stand 
on making safety its No. 1 priority. Secretary Mineta, like his 
predecessors, has worked to focus the Transportation Department 
on improving operations and reducing the number of lives lost 
on our roadways. While the fatality rates overall keep going 
down overall, I am alarmed by the increase of fatalities in the 
rural areas. In my mostly rural State, Vermonters mostly travel 
rural, two-lane roadways as part of the routine, part of their 
lives.
    I would like to see resources that can be used by State and 
local officials to address the real safety problems on the 
rural roads of America. Will the Administration's proposal 
assist in improving safety on these roadways?
    Ms. Peters. Senator Jeffords, yes, we will. What we are 
looking at in terms of where we want to spend the money in the 
safety program is to work with States to determine where the 
greatest need is, where the most crashes are occurring. As you 
said, in largely rural States, many of those crashes are 
occurring on rural, two-lane sections of road. We will work 
with States to make improvements where they can get the best 
benefit from the investment of funds.
    We're also working with our National Highway Traffic Safety 
Administration to consolidate some of the funds so that States 
have more flexibility to spend that money where they can make, 
again, the biggest difference with it.
    As I've talked with Dr. Runge at NHTSA, about some of the 
problems that we're facing, this two-lane rural problem aside, 
we're hitting up against some hard core folks who just simply 
won't wear their seat belts. We believe that there's tremendous 
potential for saving lives if we can just get more people to 
buckle up. In fact, we believe that we could save as many as 
9,000 lives a year by that simple act.
    So, we're looking at safety from a very comprehensive 
standpoint. But I do recognize your point, and the point that 
was made by several other members of this panel as well, that 
rural two-lane sections of road do have the highest incident 
rate.
    Senator Jeffords. Despite the record level of investment 
that TEA-21 has not been able to keep pace with the growing 
demand for transportation, the performance of our 
transportation system is rapidly eroding. It is easy to see 
what congestion is doing to our lives. The average rush hours 
in most community averages 5.3 hours, and 7 to 8 hours a day in 
larger communities.
    In the year 2000, a trip that would take 20 minutes during 
non-peak hours would require 30 minutes if taken during peak 
hours. These longer trips weigh on our Nation's productivity 
and reduce our quality of life. I would like to see the next 
bill target resources toward fighting congestion. What does the 
Administration propose to address this congestion problem?
    Ms. Peters. Senator, again, I think you make a very 
excellent point. In fact, when I first had the opportunity to 
come to the Federal Highway Administration, I asked that we 
focus our efforts on three priority areas. We certainly share 
the position that congestion is one of those.
    Safety and environmental stewardship are the other two 
areas that I have focused on. We're working on a number of 
fronts to try to relieve congestion, working with our State and 
local partners, understanding the types of congestion that 
we're dealing with, whether it's recurring congestion or it's 
spot congestion. Recurring congestion is most often just a 
capacity issue, there isn't enough capacity. Non-recurrent 
congestion, however, occurs because there are crashes, there 
are breakdowns in the roadway system where we have to take it 
out of service, or it's under construction.
    Some of our efforts include: programs to get longer-life 
pavement so we don't have to go in as frequently; incident 
management systems so we can clear incidents more quickly, and 
get the roads back into working order; and using technology to 
help us improve the throughput of our transportation systems. 
We have a very active effort in working with other State and 
local governments to improve congestion.
    Senator Jeffords. To date, 86 percent of our highways 
provide an acceptable ride quality, according to U.S. DOT, 
compared to 82 percent in 1993. The percent of deficient 
bridges dropped from 33 percent in 1994 to 28 percent today. 
These numbers show that with the proper investment levels, we 
can improve the condition of our transportation system. I am 
concerned that all the gains we are beginning to see in the 
condition of the transportation system may fall back under 
current budget proposals.
    Help me understand how the Administration's budget will 
keep pace with the needs of our aging infrastructure with fewer 
resources available.
    Ms. Peters. Sir, I think the way the Administration's 
budget can help us do that is to help us invest our money as 
wisely as we can. I'd like to clarify a couple of things about 
the condition and performance report. First of all, it's based 
on scenarios. It wasn't meant to be, as I said, a 
recommendation. It is a very good report and I'm very pleased 
with the report, but it was based on several scenarios. It 
reflects, as was mentioned earlier by Senator Bond, the level 
of investment by all Government: Federal Government, State 
government and local government. The report does not predict or 
state at what level Federal, State and local should invest.
    We certainly recognize that there are constraints on the 
Federal budget, as well as significant constraints on local 
budgets and State budgets as well. The cost to maintain and the 
cost to improve were based on scenarios and based over a long 
period of time. The report doesn't lend itself to year-to-year 
comparisons.
    Further, and I think probably among the most important 
things that I would talk about today, the C&P report doesn't 
consider competing demands in an economy. It says that if we 
had the money to spend to improve or to maintain a system to 
certain levels over a 20-year period of time, that would be the 
amounts we would spend. But again, it does not envision 
competing demands for funds, competing demands such as fighting 
the war on terrorism, competing demands such as protecting our 
homeland. Those are other issues that this Administration is 
having to work out within the context of the budget.
    Senator Jeffords. Transportation is one of the great 
drivers of our Nation's economy. Nearly 7 million businesses 
rely upon the U.S. transportation network to conduct business 
and engage in interstate commerce, etc. Transportation is a 
significant share of the U.S. gross domestic product. As we try 
to stimulate the economy, we have to ensure the means of 
conducting business. We need to expand freight capacity.
    How does the budget advance the effort to expand freight 
capacity?
    Ms. Peters. We have a number of efforts within the budget, 
and more that we will be able to reveal to you, when we get our 
reauthorization proposal over here, soon in terms of dealing 
with those issues.
    As Senator Boxer mentioned as well, when you have 
intermodal connectors, when you have ports, either water ports 
or land ports, and intermodal facilities, those are areas where 
we're really seeing chokepoints on our system right now. As has 
been mentioned, this adds to the cost of goods and it has a 
detrimental effect on our economy.
    So, we will be focusing some very specific efforts on 
freight and freight connectors in our reauthorization proposal. 
We have continued the funding for our ports of entry, our land 
ports of entry, our connections with Mexico and to try to make 
Canada improvements in those areas. But, we do recognize it as 
an area that hasn't achieved as much attention in the past as 
it should. It will be an area that we will emphasize even 
further, both within the context of how we apply the budget and 
again within our reauthorization proposal.
    Senator Jeffords. I have one more question. In your 
testimony, you highlighted the role of the congestion 
mitigation and air quality program, CMAQ, in advancing projects 
that reduce emissions. How does your proposal for fiscal year 
2004 treat this program? I'm concerned that you may be 
proposing to reduce CMAQ funding.
    Ms. Peters. Sir, we do recognize the importance of CMAQ 
funding, and I know you and I have had an opportunity to talk 
about this several times. I would ask that you reserve judgment 
until our reauthorization proposal is here and we look at the 
funding over time.
    We have made a very strong effort to maintain the funding 
of our core programs over the 6-year period of the 
reauthorization. When we are able to get more details to you, I 
believe you will see we have maintained that commitment.
    Senator Jeffords. Thank you, Mr. Chairman.
    Senator Bond. Thank you very much, Senator Jeffords. We in 
Missouri are very jealous of that 82 or 86 percent figure of 
good condition highways, because our highway conditions are 
rated 59 percent poor or inadequate. So we're at about half the 
level nationally of acceptable roads.
    But that's for another day. Turning now to questions from 
Senator Boxer.
    Senator Boxer. Thank you so much, Mr. Chairman.
    Ms. Peters, you said a couple of times, and I know it's 
very heartfelt, that there are other priorities, such as 
homeland security, that are basically taking money away from 
this. Mr. Chairman, I can make a very easy argument that having 
a good highway system is part of protecting our homeland. 
Because the first thing they tell you is, you may have to 
evacuate, you may have to get out. If you're sitting on a road 
and you can't move, because normally it's so congested, I would 
argue that to be able to move on our highways is something that 
you could say should fit into a homeland security plan.
    I would also say that the Golden Gate Bridge, using it as 
an example, has been cited as a terrorist target. With the help 
of our State, our local people and Tom Ridge has spent a lot of 
time, though not money yet, talking about the best ways to 
protect this landmark, it seems to me an irony that a lot of 
the bridges in California that are targeted right now that have 
Coast Guard around them and the rest are not seismically 
retrofitted. I know years ago we amended our laws so that 
seismic retrofit and other hazards fit into the bridge program.
    So when my colleagues are working on the bridge program, 
I'd like to work closely with you on this. Because we're 
getting just a trickle of funding for the Golden Gate Bridge 
retrofit. We need to do better than that.
    I was interested, Senator Bond, to learn that Missouri got 
the first contract under the 1956 interstate----
    Senator Bond. I-70 through St. Charles and it is something 
that would bring to mind the traffic jams in Los Angeles if you 
try to travel it now, as I do, twice a week. So we're very 
proud of it, but time to do something.
    Senator Boxer. Right. I was going to lead into that by 
saying that as I looked at the top 85 cities out of the 
thousands of cities that we have, and I'm mentioning this to 
you, Ms. Peters, because you're going to see a lot of us have 
very intense interests. Because as it turns out, the members of 
this committee, many of us, our cities are on this list. Just 
to give you some idea, we've got several cities in Missouri, 
we've got several cities in Portland, in Florida, Las Vegas is 
on the list, Oklahoma is on the list with two cities. New York 
is on this list with several cities, Oregon with several 
cities, Providence is on the list. Even Anchorage, AK is on the 
list. Vermont I didn't see. But it says, soon will be on the 
list----
    [Laughter.]
    Senator Boxer. So bottom line is, there's a personal, I 
mean, as Senator Bond pointed out, he knows it first hand, I 
know it first hand, when I'm trying to go some place in Los 
Angeles. When I ask my staff, how long will it take us to get 
there, they say anywhere between 15 minutes and 1 hour and 15 
minutes, something is wrong.
    So I'm just making rhetorical comments here. But I want to 
support what Senator Voinovich said. It was alluded to by 
Senator Thomas. We all know the economy's got problems, 
everyone's got different ways to stimulate the economy. The 
President's idea is tax cuts. He feels that's going to do it.
    But I would respectfully say, and his $600-plus billion tax 
cut plus add on interest on the debt, it comes perhaps to about 
a trillion, there's got to be $10 billion to meet this terrible 
need that we have. I would say going back to the founding of 
the program, when you read a little history, it's interesting, 
President Eisenhower first saw the need for an interstate 
system in 1919.
    But then he went--oh, listen, he participated then in the 
U.S. Army's first transcontinental motor convoy, which took 62 
days to get from Washington, DC. to San Francisco. Sixty-two 
days to go across the country. He got very interested in this 
after World War II, when he became President. This was his 
landmark, one of his landmarks. He also did the National 
Defense Education Act, which I think was one of the greatest 
visions of any President.
    But the bottom line here is, it took them 62 days. I don't 
want to see it start to take a long time to go across the 
country or within a State, because of congestion. We need to do 
more. We just can't rest on our laurels that our forefathers 
and mothers were so adept at addressing.
    The last point I make, it's confusing about the money, and 
I want to make sure I've got it straight. So if you'll bear 
with me and tell me if you think this is accurate. In 2002 and 
2003, the appropriators, all of us appropriated $31.8 billion 
for this purpose. In 2003, as you well remember, we had to add 
some money to it in the end in the omnibus. So it was flat 
funded between 2002 and 2003, and in 2004 you're suggesting 
$29.3 billion. In 2005, $30.3 billion, and in 2006, $31.3 
billion. So you're still below, without even adding inflation 
for that period, you're below where we are today. Am I correct 
in that?
    Ms. Peters. Senator Boxer, yes, you are correct.
    Senator Boxer. OK. I just wanted to make sure, because I 
believe it's unrealistic. I agree that you couldn't have a 
better stimulus than building the roads. It's a stimulus not 
only immediately for the people who go to work and the effect 
of that and the businesses that will supply all the equipment 
and everything we need to build the road. But it's also going 
to move the traffic, it's going to address the ports and the 
rest.
    So I just think we're, I hope we're going to have strong 
bipartisan help. I hope you will make the case, as you talk to 
folks at OMB and to the President and the folks who make these 
budgetary decisions, I hope you'll let them know how strongly 
many of us feel on both sides of the aisle that this is an area 
that's a stimulus for our economy, a necessity, and it's a 
bipartisan, I think, strong support. It's the strongest support 
I've seen in a while around here. We've been pretty divided, 
but I think we're pretty united on this.
    Will you let them know we feel this way?
    Ms. Peters. Senator Boxer, I certainly will, and Mr. 
Chairman and others, I will carry the message back. I would 
like to add that what the Administration has tried to do, 
again, as we acknowledge, between competing demands, is hold 
true to the principles of the Highway Trust Fund, and that the 
money that goes into the Trust Fund will be spent out of the 
Trust Fund. It is true that that money, our projections of the 
money that will go into the Trust Fund over the coming years 
and then what would be spent out of the Trust Fund is lower 
than the 2003 appropriations level.
    But it's also important that we look at the sanctity of the 
Trust Fund, the balance of the Trust Fund and what the Trust 
Fund will allow us to afford within existing funding 
mechanisms, and again, adding the 2.5 cents in. This 
Administration does not feel that this is the appropriate time 
to raise taxes. So we have not proposed raising taxes. But we 
have adhered very closely to the principles in the Fund.
    But I hear and understand your concerns, your collective 
concerns.
    Senator Boxer. How is it the President's cutting taxes and 
I think one thing I think about is doing a little better mix. 
They call it an economic growth package. This could be part of 
that. I don't think it's going to hurt the top 1 percent to get 
a little less of a tax cut. It's a different philosophical view 
from even my colleagues here.
    Last point I'd make, you've also said sanctity of the Trust 
Fund a number of times. Think about the whole purpose of the 
Highway Trust Fund, in addition to the sanctity of The Fund. 
There's really the idea that was brought here by a Republican 
president that we've got to keep people moving.
    Senator Bond. Thank you very much, Senator Boxer.
    Senator Voinovich. I'm just going to drive this home again. 
According to your statistics, FHWA's 2000 conditions 
performance, the average annual investment level needed to make 
improvements to highways and bridges is projected to be $106.9 
billion per year. Statistics are that to just do the 
maintenance, maintain the current condition, and performance is 
another $75.9 billion each year through 2020.
    The question I have is, What does the Administration intend 
to do about this, or are they just going to abdicate any 
leadership role and leave it up to us to decide what we need to 
do in order to meet this challenge that we have for our 
country?
    Ms. Peters. Senator, you make a very good point. Several of 
the things that the Conditions and Performance Report tells us 
are that we have invested wisely in the past and that the money 
that was invested as a result of TEA-21 has resulted in an 
overall increased performance in our system, rather, improved 
condition of our system. It does point out, however, and this 
was a point that was made by several of you, that the operating 
condition of the system is not going to continue to improve 
and, in fact, will deteriorate absent future funding.
    That's why we are, within the context of the President's 
proposal, sir, focusing money directly at the areas that we 
think will make the best difference.
    Senator Voinovich. I understand that. But logic tells you, 
you're going to the Governor and you're saying to him, ``Here 
is what the needs are and here's what we're doing, and yes, 
we're spending what's there and we're doing it as wisely as we 
can.'' But logic will tell you, it doesn't get the job done. 
The question is, Is the Administration going to take any 
leadership role in handling the challenge that we have in this 
area, based on your own numbers, or are you going to leave it 
in the hands of the Congress to come forward and solve the 
problem for the Administration?
    Ms. Peters. Senator, the Administration believes that we 
have put forward a prudent, responsible budget for this time.
    Senator Voinovich. I think that it's not adequate to get 
the job done. It just defies logic.
    The other question I'd like to ask is, the Nation's 
transportation system contributes to economic revitalization. 
Do you have any idea of how many jobs are provided by $1 
billion investment in highway infrastructure?
    Ms. Peters. Yes, I do, sir, approximately 47,500 jobs are 
created by every billion dollars invested.
    Senator Voinovich. So that if we--$10 billion would be 
470,000 jobs?
    Ms. Peters. That's correct.
    Senator Voinovich. That's a lot of jobs. You ought to give 
some thought to that. So should the Administration.
    Do I still have some time?
    Senator Bond. Well, Senator, I've kind of made all of my 
points. If you haven't made any, we'd be delighted to hear 
those.
    Senator Jeffords. I've made all my points.
    Senator Bond. If you have any points you haven't made?
    Senator Voinovich. Well, I do, if you don't mind.
    Senator Bond. Sure, sure.
    Senator Voinovich. One of my priorities in another 
committee is governmental affairs, and that's in improving the 
Federal workforce. I have the oversight of Government 
management and Federal workforce. Recently I met with Inspector 
General Ken Mead to discuss workforce issues and how getting 
the right people in the right jobs would help improve project 
delivery and project oversight and management.
    I also understand that language was included in the Omnibus 
Appropriations Conference Report directing you to prepare and 
submit a strategy to Congress by May 15 on how the agency will 
improve large management and oversight. I look forward to 
working with you on this.
    In your testimony you state that FHWA's budget would permit 
to hire 12 additional employees dedicated to oversight and 
major projects over $1 billion in cost. What will you do to 
ensure that you have the right people in there to get the job 
done? What steps are you taking to develop a multi-disciplinary 
staff at your department as directed by the bill?
    Ms. Peters. Senator, I think the recommendation, I know the 
recommendation, will be fulfilled in terms of our report to 
Congress. We're doing a number of things to ensure that we are 
getting the right mix of people and the right number of people 
to look at our major project oversight, what we call 
megaprojects. We have, as you indicated, requested 12 
additional staff. We would like to have at least one staff 
person for every major project. Some very large projects, we'd 
like to have two people assigned to those projects.
    What we forecast, we currently have 14 projects that are 
over $1 billion. We expect that number to grow to 20 by 2004 
and 30 by 2007. Some of the projects that you all have 
mentioned here today are among the important projects, 
rebuilding our interstate system in our urbanized areas, major 
interchanges between States, things like that.
    We completed our stewardship and our oversight policy in 
June 2001, and that includes a risk assessment. I've instructed 
each of our division administrators, and Federal Highway is 
fortunate that we have a division administrator in every State, 
to conduct risk assessments with the local State officials on 
the megaprojects, on the major projects.
    On our oversight and management of the improvement 
projects, we put guidance out to our field in October 2001. We 
have fully staffed and trained the team as it exists today. We 
recognize that that can't be all engineering expertise. 
Engineering still is important in our fulfilling our 
responsibilities, but understanding complex financial 
opportunities to finance these projects, understanding 
insurance issues, such as owner-controlled insurance, are all 
part of the responsibilities of this team now. It isn't just 
about engineering any more at all.
    In the report that we will submit to you later this year, 
we will detail how we're bringing in that multi-disciplined 
cadre of personnel to make sure that we are managing these 
projects from a holistic sense, not just from an engineering 
sense.
    Senator Voinovich. Well, I must say that it's just 12 
individuals. But finding those individuals, there are different 
kinds of talents and skills that you ordinarily have in the 
Department. I make one other suggestion to you. It's my 
understanding from talking to Mr. Mead that that there are 
several States that are doing a very, very good job in the 
oversight of projects, and they've got some very good people. 
Perhaps one of the things you could do would be to find the 
best practices that are out there and conduct a major seminar 
program throughout the country to try and train some of the 
local people in terms of what they need and how they deal with 
the big picture on some of these projects so that you can 
enhance what you're doing here in Washington with some very 
good people out there in the States. So often they're more 
close to it on an every day basis than anyone you could 
possibly hire here in Washington to look over their shoulders.
    Ms. Peters. Senator, I think that's an excellent 
suggestion. As a former Governor, when someone who had broad-
based responsibilities, you can understand, you can have best 
practices in different areas.
    I have asked my deputy, Rick Capka, who is retired from 29 
years with the Corps of Engineers and has extensive experience, 
to take this on as part of his direct portfolio and to report 
to me what and how we are doing to ensure that we are bringing 
in that proper diversity of experience and that we're 
attracting the right people into these positions and looking at 
best practices, sharing best practices. He's working very 
actively with AASHTO and with Director Stephens from the State 
of Nevada and others to try to find out where those best 
practices are, bring them in and share those with other States.
    I certainly will pass on your guidance to him, sir, and if 
you'd like to have a more comprehensive briefing, I will ask my 
deputy to come over and sit down and go over the other things 
we are doing in this area.
    Senator Voinovich. I'd really like that, and I'd also like 
to know what impediment you're finding in terms of hiring and 
bringing these people on board. I'd also like to know anything 
that's standing in the way of your keeping some of your good 
people. Because in so many agencies, we've got folks that are 
right on the edge of retirement that we can't really afford to 
lose, because we need their skills and knowledge and 
institutional knowledge.
    Ms. Peters. You're very correct, sir. One of the things 
that keeps me awake at night is the number of our senior 
employees with a lot of experience and institutional knowledge 
that will be retirement eligible in the next decade.
    Senator Voinovich. Thank you.
    Senator Bond. Thank you very much, Senator Voinovich.
    As I said, Administrator, we very much appreciate your 
coming here. We've heard your arguments I think you've heard 
the voices of people representing roughly 50 million Americans 
at this table. This is, as I think Senator Thomas said earlier, 
a matter of great importance. It doesn't matter whether you're 
from the east coast or the Midwest or the west coast or the 
Southwest, good highways, roads and bridges are absolutely 
essential to our economy.
    We do really look forward to working with you. There are 
some obvious differences of opinion. But that's what this 
system is all about. I think you see a bipartisan, biregional 
or omniregional agreement that this is a priority. We look 
forward to working with you, and hope that we can make a case 
that OMB will understand.
    So for the ranking member and the Senator from Ohio, thank 
you. The hearing is adjourned.
    [Whereupon, at 10:52 a.m., the subcommittee was adjourned, 
to reconvene at the call of the chair.]
    [Additional statments submitted for the record follow:]
      Statement of Mary E. Peters, Administrator, Federal Highway 
           Administration, U.S. Department of Transportation
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to testify today in support of President Bush's Fiscal Year 
(FY) 2004 Budget proposal for the Federal Highway Administration 
(FHWA). We are looking forward to working with this subcommittee and 
with Congress to achieve the goals outlined in the fiscal year 2004 
budget request--a budget request that provides the foundation for the 
Administration's reauthorization proposal for surface transportation 
programs.
    Funding levels in the 2004 budget reflect the difficult choices 
currently facing both the Administration and Congress. The President's 
budget seeks a balance in addressing domestic needs, meeting our 
international responsibilities, and protecting against terrorist 
attacks at home. The requested $29.3 billion obligation limitation for 
the Federal-aid Highway program establishes a prudent basis for a 
sustainable highway program, provides for responsible program increases 
over the 6-year reauthorization period, and continues the traditional 
linkage of highway spending and trust fund revenues. When the 
President's 6-year surface transportation reauthorization proposal 
outlined in the fiscal year 2004 budget request--including highways, 
highway safety, transit, and motor carrier safety--is compared to the 
6-years of record-level investments under the Transportation Equity Act 
for the 21st Century (TEA-21) for these programs, the proposal reveals 
an overall increase of 19 percent.
    Transportation is essential to America's security, economic 
prosperity, and quality of life, and our highways and freight 
connectors are the critical links in the Nation's intermodal 
transportation system. With today's global economy, it is more 
important than ever to have the infrastructure necessary for seamless 
transitions between modes of transportation, so that people and cargo 
can move effectively and efficiently. Moreover, highway infrastructure 
investment is an excellent investment for the Nation in normal times 
and, in a recovering economy, can play an important role in economic 
revitalization. The President's fiscal year 2004 Budget request 
proposes a responsible and substantial investment in our Federal-aid 
Highway Program.
                          primary goal: safety
    While maintaining our high-quality highway network and improving 
its operation presents a significant challenge, the greatest challenge 
facing the Department of Transportation, and specifically the Federal 
Highway Administration, is making our highways safer. On release of the 
fiscal year 2004 budget request, Secretary Mineta commended the 
substantial resources proposed for transportation safety improvements 
and reaffirmed safety as his top priority for transportation. Secretary 
Mineta has urged all of us at the Department to focus on a simple but 
profoundly important goal: Saving Lives. This has been a key 
consideration in developing both the 2004 FHWA budget request and our 
reauthorization proposal.
    Forty-two thousand people are killed annually in traffic 
accidents--that is 115 people killed each and every day, including 
about thirty Americans under the age of twenty five. We must, and we 
are, finding new opportunities and developing new technologies for 
saving lives. We are aggressively advancing the activities and projects 
that we already know prevent accidents, and that reduce fatalities when 
accidents do happen. For example, thousands of lives could be saved if 
every vehicle occupant would only buckle-up. The President's budget 
request will make a meaningful investment in a comprehensive safety 
program--roadway, driver, and vehicle--to strengthen our partnership 
with States and the public for these vital safety efforts.
                      simpler and smarter programs
    Secretary Mineta has further challenged the Department to create 
not only a transportation system that is safer for all Americans, but 
transportation programs that operate smarter and are simpler to 
implement as well. While safety must be a consideration in every 
transportation investment, efficient movement of people and goods is 
the purpose of our surface transportation system.
    At FHWA we will work to achieve a safer surface transportation 
system by placing the greatest emphasis on reducing accidents and 
saving lives. First and foremost we will be safety advocates. We will 
fulfill our mission of improving mobility through more efficient 
project delivery. By simplifying and consolidating programs and, in 
some areas, through increased flexibility for States, needed safety and 
mobility projects can be delivered sooner. By focusing on improved 
system performance and increased program accountability, smarter 
investments can be made for increasing both safety and mobility.
    The FHWA fiscal year 2004 budget request includes the budgetary 
foundation for the Administration's proposal to reauthorize the 
Federal-aid Highway Program for the next 6 years. I would like now to 
highlight for you some of the priority areas in our funding request 
and, in the process, share with you some of the principles that guided 
our 2004 budget proposal and are central to our reauthorization 
proposals as well.
                                 safety
    Flexibility. First, while the basic framework for national 
transportation systems may be established at the Federal level, we 
believe that local problems are best solved at the local level. We will 
continue to encourage State and local agencies to adopt a strategic 
approach to address highway safety when setting priorities among 
projects, and we believe that State and local authorities should have 
increased funding flexibility to invest their safety dollars where they 
have determined that needs are greatest and there is the greatest 
potential for accident and fatality prevention. This is the formula for 
smarter program investments, not only in safety but for mobility as 
well.
    Data Improvement. Because crash data is the foundation for making 
better decisions to achieve more cost effective safety improvements, we 
will continue to encourage general improvements to State accident data 
collection and analysis systems, including a targeted analysis of 
causal factors at high-crash locations. Better data will mean smarter 
investments and lives saved.
    Comprehensive and Collaborative. A comprehensive and collaborative 
safety program is a smarter program. FHWA has been working closely with 
the National Highway Traffic Safety Administration (NHTSA), the Federal 
Motor Carrier Safety Administration (FMCSA), and the Federal Railroad 
Administration (FRA) to ensure that under this budget, and in our 
reauthorization proposal, we have designed comprehensive and 
complementary Federal safety programs. These collaborative efforts can 
translate into consolidated and simpler processes for State and local 
agencies to obtain and effectively invest Federal safety funds. These 
efforts also provide a way to coordinate successful techniques from all 
aspects of safety and have the greatest impact on reducing highway 
deaths and injuries.
    Infrastructure Investment. Investments for safety cut across 
program lines in our budget request. Improvements in system conditions 
and operations benefit safety as well as mobility, and States may, and 
do, use Surface Transportation (STP), Interstate Maintenance (IM), 
Highway Bridge Replacement and Rehabilitation (HBRRP), and National 
Highway System (NHS) funding for safety-specific improvements. 
Construction programs contribute to safety by improving unsafe roadway 
design and operations, improving the condition of bridges, and removing 
roadway hazards. Signing and pavement improvements can enhance the 
safety of existing and new facilities for all users of the highway 
system. Safety can be built into every interchange upgrade, 
intersection redesign, or new facility through safety conscious 
planning and design.
    Research and Technology Investment. Transportation research and 
technology is crucial to the future of our highway system. FHWA is 
proposing to step-up its investment in transportation research and 
technology (R&T) programs for fiscal year 2004, requesting a total of 
$404 million. R&T benefits all of our programs, including safety, in a 
variety of ways.
    Infrastructure R&T is focused on ``the Infrastructure of the 
Future''--breakthrough technologies to reduce the need for repairs and 
replacement of our highway pavements and bridges. It is a fresh, bold 
approach to fulfill the need for a safe, efficient, effective, and 
reliable highway infrastructure. The program will emphasize the concept 
of ``Get In, Stay In, Get Out, and Stay Out,'' for the development and 
deployment of highway infrastructure with significantly improved life 
cycle cost, major extensions in life, and substantial extensions of the 
maintenance and rehabilitation cycle. The Infrastructure R&T effort 
will be concentrated in the technical areas of asset management, 
bridges, and pavements to achieve its goal. That goal is to develop and 
deploy the tools and technology to reliably produce 50-year performance 
pavements, 100-year performance bridges, and a holistic asset 
management process for infrastructure investment and re-investment 
decisionmaking. The program will include our partners and stakeholders 
to provide direction and input throughout the R&T process. Breakthrough 
technologies such as pre-fabricated bridges and pavements will be used 
to improve highway condition while reducing lane closures and 
congestion. Safety, mobility, and user satisfaction will be improved 
through development and deployment of better technologies for 
durability, smoothness, low noise and safe surface friction levels, and 
ability to withstand natural hazards and terrorist threats.
    Safety R&T funds will help us identify opportunities for safety 
improvements, provide States with tools to better focus their safety 
investments, and permit development and deployment of safety 
technologies. In fiscal year 2004, FHWA is focusing its safety research 
and technology program on three high accident areas:
    (1) Roadway departures. Activities to address this problem include 
refinement of an Interactive Highway Safety Design model, improvements 
for driver visibility, and increased crashworthiness of road and 
roadside safety features. Initiatives for fiscal year 2004 include 
development of a countermeasure evaluation tool to prevent two-lane 
rural road crashes, work to improve the retroreflectivity of pavement 
markings and highway signs, and promoting increased installation of 
skid-resistant pavements, center-line and edge-line rumble strips, and 
improved roadway safety hardware.
    (2) Intersections. A comprehensive intersection analysis program 
will identify safety problems and opportunities, and implement cost-
effective countermeasures. Initiatives planned for fiscal year 2004 
include implementation of the National Intersection Safety Agenda, 
deployment of leading-edge traffic signalization technologies and 
practices, safety training for State and local personnel, evaluation of 
techniques to promote speed reduction at intersections, safety 
evaluations of intersection treatments, and refinement of roundabout 
designs to enhance safety for all users including pedestrians with 
disabilities.
    (3) Pedestrians. The FHWA works in cooperation with NHTSA on 
developing and evaluating comprehensive countermeasures and appropriate 
tools and technology to improve safety for bicyclists and pedestrians, 
including pedestrians with disabilities. Countermeasures and tools 
range from integrating pedestrian and bicyclist issues in the planning, 
design, operations, and maintenance of roadway facilities, to 
implementing key recommendations from our partners and customers.
    New initiatives for fiscal year 2004 include automatic pedestrian/
bicyclist counting devices, modeling of decisionmaking at intersection 
crossings, and investigation of the implications of reduced vehicular 
sound on pedestrians with visual impairments.
    In addition, the FHWA conducts a number of safety research projects 
which contribute to multiple objectives, including: work on speed 
management to encourage wider adoption of safe travel speeds 
appropriate for road and travel conditions; safety management to ensure 
that resources are allocated to assure maximum returns in reducing the 
severity and frequency of crashes; work on human-centered systems to 
incorporate human factors considerations into all aspects of highway 
design; work zone safety improvements; and a variety of safety outreach 
efforts.
    Funding requested for the Department's Intelligent Transportation 
Systems program will not only advance our core mission of mobility, but 
will support technological solutions for safer vehicles, drivers, and 
roadways. The 2004 ITS program would continue the Intelligent Vehicle 
Initiative and the Commercial Vehicle Operations Program, and continue 
the development and implementation of technology for systems 
reliability and congestion reduction. Funds requested for the System 
Management and Information Program will increase the availability of 
real-time information about travel conditions, benefiting both safety 
and mobility.
    Also funded under R&T, our training and education programs focus on 
delivering the skills the transportation community needs for timely 
implementation of the many new technologies as they become available.
                           funding resources
    The 2004 budget proposal for highways builds on the successes of 
prior legislation and will maintain guaranteed funding, budgetary 
firewalls, and Revenue Aligned Budget Authority (RABA) adjustments that 
link highway spending to Highway Trust Fund receipts. These guarantees 
and adjustments will be refined in our legislative proposal, but we 
believe the concepts are important to retain to provide State and local 
governments with the certainty and predictability in transportation 
funding crucial to their programs, and to better align highway spending 
with highway use.
    To further assure that every dollar collected into the Highway 
Account of the Highway Trust Fund during the 6-years covered by the 
reauthorization period would be obligated and eventually spent, the 
President's Budget for fiscal year 2004 links highway program funding 
levels for each year to the current projections of Highway Account 
receipts for that same year, rather than the method under TEA-21 which 
linked funding to prior year receipts.
    The 2004 budget also proposes, to augment Trust Fund receipts, that 
all revenue from gasohol taxes be deposited directly in the Highway 
Trust Fund, rather than the current practice of diverting 2.5 cents per 
gallon to the General Fund. If enacted, this one change would add more 
than $600 million of available funding to the Highway Trust Fund for 
each year of the authorization cycle. All of this additional funding 
would go into the highway account of the Highway Trust Fund. This is an 
important step toward meeting our Nation's transportation needs during 
a period when finding additional resources for highways will test our 
ingenuity.
    The President's budget request does not propose any new gasoline 
taxes.
    The President's budget also proposes a new program--the 
Infrastructure Performance and Maintenance Program--intended to quickly 
address congestion, traffic bottlenecks, and pavement conditions. The 
proposal would add an additional $1 billion per year over the 6-year 
reauthorization period in obligation authority above estimated 
receipts. The President's budget request will have the effect of 
spending at a level that keeps the Highway Trust Fund balance 
relatively constant and sufficient to meet program outlays. This 
proposal has been carefully evaluated and we believe it is prudent and 
responsible for the Nation at this time.
    We will continue to encourage the States to employ innovative 
financing tools for more private sector investment in infrastructure 
and to better leverage our Federal transportation dollars. The 2004 
budget requests funding to continue the Transportation Infrastructure 
Finance Innovation Act program (TIFIA) at the 2003 level. Innovative 
financing has proven especially useful to advance the intermodal 
projects that are so important for efficient movement of freight.
                            freight movement
    Effective freight transfer networks are crucial to our economy. In 
addition to encouraging States to use innovative financing methods and 
core program funds to address freight gateway and freight intermodal 
connector needs, we will work with other DOT agencies on more effective 
planning, improved data, multistate coordination, and infrastructure 
and operational improvements for these networks.
    Freight movement carries many homeland security ramifications which 
must be properly integrated into an overall freight movement network to 
avoid adversely impacting operational efficiencies. Some of these 
concerns would be addressed with funding requested for ITS research and 
deployment. This research will focus on container security and the 
development of a ``smart container'' that will reduce the 
vulnerabilities that have been previously identified in the supply 
chain, and complement other container security initiatives in which the 
Department is involved such as Operation Safe Commerce. Joint tests are 
being proposed with partnering nations.
    Proposed investment of $47 million in fiscal year 2004, for cross-
border safety inspection infrastructure at our southern international 
borders, will not only address highway safety and national security 
concerns, but should improve the flow of freight at border chokepoints. 
This investment will be the last installment of a 3-year effort 
totaling $150.3 million.
                    system condition and performance
    As mentioned above, our proposal unveils a new $1 billion 
Infrastructure Performance and Maintenance initiative specifically 
aimed at addressing immediate highway needs and at projects that can be 
implemented quickly. Totaling $6 billion over the authorization period, 
this funding will target projects that address traffic congestion and 
bottlenecks, and improve pavement conditions. The idea is to promote 
projects that result in immediate benefits while avoiding long-term 
commitments of funds; that is, projects that can be undertaken and 
completed within a short timeframe. States would be required to 
obligate funds in the first half of each fiscal year. Funds not 
obligated during this period would be withdrawn and redistributed to 
States with projects ready to go.
    Only highway projects for system preservation, preventive 
maintenance, or operational improvement that are already eligible under 
the Interstate Maintenance Program, the National Highway System 
program, and the Surface Transportation Program would be eligible. It 
is anticipated that these projects would improve highway system 
condition and performance. Safety will benefit as well from these 
system improvements coming online quickly.
                   program and financial stewardship
    Stewardship requires that we ensure that the nation's resources 
entrusted to us are used to wisely solve our nation's transportation 
problems. Stewardship requires that we continue to find ways to meet 
our highway responsibilities to the public by efficiently delivering 
the very best in safe, secure, operationally efficient, and technically 
advanced highway facilities, while complementing our nation's many 
other vital public and community needs. It requires unquestioned 
corporate and individual integrity. This is a priority for the 
Department and the Federal Highway Administration.
    With the funds requested for fiscal year 2004, FHWA will 
specifically focus on process improvements to ensure that challenging 
transportation solutions are provided as promised--on schedule and 
within budgets. We will work with the States to ensure new and expanded 
approaches to integrating the planning, environmental review, and 
project delivery processes, along with greater emphasis on program 
level and major project management oversight. We have requested 
additional administrative resources, including staffing, for these 
purposes.
    Oversight. The availability of adequate administrative resources is 
necessary to ensure that the American public is getting the full value 
from its investment of highway user fees, by providing the level of 
oversight and stewardship necessary to deliver the Federal-aid Highway 
Program in an efficient and effective manner. It should be emphasized 
that the cost to taxpayers for the stewardship of the Federal-aid 
Highway Program is about 1 percent of the cost of the programs that the 
FHWA oversees. We believe this represents responsible taxpayer value. 
The funding requested for fiscal year 2004 will permit FHWA to hire 12 
additional employees dedicated to oversight of major projects (projects 
of over $1 billion in cost), providing at least one project oversight 
manager for each megaproject. In addition, we will work with States to 
ensure financial and project plans are adequate and in place before a 
project is started and that performance can be evaluated, in an effort 
to maximize each Highway Trust Fund dollar spent. With the 
administrative funding requested, we further propose to improve the 
security of our critical information systems and upgrade our 
information technology infrastructure.
    An oversight program will be established which is responsive to all 
areas related to financial integrity and project delivery. Risk 
assessment tools will be used to focus on critical program areas and 
resources will be allocated accordingly.
                       environmental stewardship
    FHWA is committed to fulfilling its environmental stewardship 
responsibilities. Continued progress in streamlining the delivery of 
transportation improvement projects will improve safety and ease 
congestion, but must be balanced with the need to protect communities 
and the environment. Funds requested for 2004 will allow us to continue 
to work closely with the Environmental Protection Agency (EPA) to 
reduce on-road mobile source emissions. Through Congestion Mitigation 
and Air Quality Improvement Program (CMAQ) funding we will advance 
transportation projects that reduce emissions--projects that also 
reduce traffic congestion.
    Support for air quality and climate research will advance our 
understanding of the relationship of surface transportation to the 
emerging areas of fine particulate emissions, toxic air emissions, and 
regional haze. With this knowledge, the transportation community can 
develop mitigation tools and technologies to reduce such emissions.
    Each year over 900 million people visit National parks, forests, 
and wildlife refuges. Through our Federal Lands Highways program we are 
providing funding to maintain and responsibly improve access to these 
areas. Because a substantial maintenance backlog has built up in our 
system of Park Roads and Parkways, the President's budget requests a 
$135 million funding increase, for a total of $300 million for fiscal 
year 2004, to improve National Park Service roads.
    NHS, STP, and Federal Lands funds can support programs that reduce 
the social and environmental impacts of transportation improvement 
projects. FHWA will promote strategies that emphasize environmental 
values at the systems planning level, as well as the project level. We 
will seek to improve our ability, and that of our partners, to design 
and manage programs and projects that protect and improve the 
ecological quality of the larger watershed in which Federal-aid highway 
projects are located. Wider use of watershed and ecosystem level 
approaches that enhance, restore, and preserve aquatic and upland 
ecosystems will serve to maximize benefits while expediting the 
environmental review process.
    Environmental Streamlining. Efficient environmental review 
processes will continue to be a priority. The President's budget will 
advance efforts to cooperatively establish realistic project 
development timeframes among the transportation and environmental 
agencies. Working together to adhere to those timeframes requires 
greater resource commitment, but is critical to success. An example of 
what can be achieved through early inter-agency coordination and big-
picture, corridor decisionmaking early in the planning and review 
processes is the tiered environmental review for the 200-mile I-70 
project in Missouri, which is expected to be completed in approximately 
4 years rather than the 6 to 7 years often required for complex 
corridor studies.
    In order to meet the intent of the President's Executive Order on 
Environmental Stewardship and Transportation Infrastructure Reviews, we 
will intensify efforts currently underway that focus on solidifying 
interagency partnerships. To this end, we have already identified seven 
priority projects for closer attention, including the Chittenden County 
Circumferential Highway in Vermont. This highway's status as a priority 
project ensures that resolution of project issues is treated as a high 
priority for both agencies, resulting in expedited reviews and 
increased communication between the agencies.
                            emergency relief
    Another key component of the fiscal year 2004 budget that impacts 
safety, security, and mobility is a proposal for increasing mandatory 
Emergency Relief (ER) funding from $100 million per year to $200 
million. Historically, the $100 million per year authorization for the 
ER program has been inadequate to fund all the requests, and 
supplemental appropriations have been provided by Congress when large 
backlogs developed. The proposed increase will enable FHWA to respond 
more quickly to the urgent needs of the States and local communities. 
For example, ER funding permitted FHWA to provide an initial allocation 
of $3 million to Oklahoma just a week after a barge accident last year 
caused the collapse of the I-40 bridge. This initial funding and a 
followup allocation of $11.9 million, provided the Oklahoma State 
Department of Transportation resources to minimize interruption of a 
critical Interstate route, and to provide for reconstruction. The 
current estimate of remaining ER needs related to the I-40 bridge 
catastrophe is $15.2 million. Our 2004 budget request to double the 
annual authorization level for ER will allow us to continue to meet 
such needs.
                               conclusion
    Within today's constrained budget environment, President Bush's 
2004 budget request makes a very substantial commitment to ensuring a 
safe and efficient Federal transportation system for all Americans. The 
funding requested in 2004 will help improve transportation safety; 
enhance national security; maintain and improve our transportation 
infrastructure, and increase its operational capacity; reduce 
environmental degradation; and improve the quality of life for all our 
citizens. Secretary Mineta and all of us at the Department of 
Transportation look forward to working with Congress to enact the 
President's fiscal year 2004 budget in order to provide a viable 
transportation system to support a strong America.
    Thank you again for the opportunity to testify today. I would be 
pleased to answer any questions you may have.
                                 ______
                                 
Responses of Mary Peters to Additional Questions from Senator Voinovich
    Question 1a. Your testimony states that Secretary Mineta has made 
safety his top priority for transportation. You also state that in the 
President's budget request and reauthorization proposal, you have 
designed comprehensive and complementary Federal safety programs.
    How will the Administration's reauthorization proposal reflect the 
Secretary's interest in safety?
    Response. The Administration's reauthorization bill has not yet 
been finalized, pending resolution of remaining comments that developed 
during the inter-agency clearance process. Until the content of the 
bill is finalized, we are unable to provide a definitive response to 
this question. However, we are making every effort to expedite 
completion of the bill, and look forward to discussing our proposal 
with you as we continue to work together through the reauthorization 
process. As I noted in my testimony, increased policy emphasis, greater 
visibility, and more resources to implement the Department's safety 
programs are important considerations.
    Question 1b. Do you envision creating new programs or consolidating 
or making changes to existing programs?
    Response. The Administration supports quick delivery of safety 
programs to save more lives. Program simplification and consolidation 
are strategies considered for achieving more efficient program 
delivery. A comprehensive and complementary, data-driven approach to 
safety is also important to coordinate successful techniques from all 
aspects of safety that will have the greatest impact on reducing 
highway deaths and injuries.

    Question 1c. Will State and local governments be provided 
additional flexibility in the manner in which funding for safety 
programs may be used?
    Response. State and local flexibility to invest safety dollars 
where the needs and the potential for crash reductions are greatest is 
an important consideration in structuring future safety programs. 
Improved crash data collection and analysis systems are also key to 
smarter investments that save more lives.

    Question 2. As the Interstate system reaches its 50th anniversary, 
many States like Ohio are facing the high costs of reconstructing their 
Interstate highways.
    How does FHWA's budget and reauthorization proposal address the 
special needs of States with an aging Interstate system?
    Response. The Administration's reauthorization bill has not yet 
been finalized, pending resolution of remaining comments that developed 
during the inter-agency clearance process. Until the content of the 
bill is finalized, we are unable to provide a definitive response to 
this question. However, as I described in my testimony, the 
Administration has announced a $6 billion initiative called the 
Infrastructure Performance and Maintenance Program (IPAM), which is 
designed to assist States in addressing congestion mitigation and 
maintenance projects that are ready to be constructed. While this 
program is not restricted to the Interstate system, we expect that 
States will advance many Interstate projects with these additional 
funds.

    Question 3a. According to your testimony, in fiscal year 2004, FHWA 
is focusing its safety research and technology program on high accident 
areas.
    How does FHWA work with State and local governments to ensure our 
roads are as safe as possible?
    Response. The FHWA provides a key leadership role in working with 
State and local governments to improve safety on America's roads by 
providing technical support, training, and information on the latest 
and more successful practices, policies, and emerging technologies. We 
equip State and local decisionmakers to make the right decisions based 
on their particular safety problems and resources. Our aim is getting 
the right information to the right State and local people at the right 
time--that is, getting these ``tools for life'' to the front line on 
time.
    The major national activity underway is the implementation of the 
AASHTO Strategic Highway Safety Plan and related tools. The Plan 
outlines a comprehensive, integrated approach to significantly reduce 
deaths and injuries on the roads of the Nation. This Plan was developed 
by a group of experts from public and private safety organizations. It 
addresses the highway safety problem on several fronts, including 
engineering, education, enforcement, and emergency medical services and 
provides strategies and actions to substantially reduce the frequency 
and severity of crashes. FHWA has a key responsibility in the transfer 
of technologies and tools resulting from the Plan.
    We also work with State and local agencies in the development, 
testing, and evaluation of emerging safety technologies and tools. For 
example, we have test and evaluations underway for speed management 
techniques, as well as a new software package used to assess the safety 
implications of alternative roadway designs and alignments for rural 
two lane roads.
    FHWA is working with the many highway safety national organizations 
and State and local agencies to provide this life-saving technical 
support, training, and information. These organizations include Local 
Technical Assistance Program centers, the American Public Works 
Association, the National Association of County Engineers, the 
Institute of Transportation Engineers, the Governors Highway Safety 
Association, as well as State and local departments of transportation.

    Question 3b. What is the most pressing roadway safety problem 
facing the Nation? What can be done to address the problem?
    Response. The roadway safety problem is a significant problem for 
the Nation. Nearly 43,000 people are killed on America's roads each 
year. On an average day, 117 people lose their lives on our highways, 
and traffic crashes are the leading cause of death for Americans from 
1-year to 34-years old. Traffic crashes cost our Nation over $230 
billion dollars per year, yet most Americans don't see highway safety 
in these terms. Traffic crashes always affect the ``other guy'' and 
until the tragedy strikes close to home the general attitude of the 
public borders on complacency. Improving highway safety starts with the 
personal responsibility of drivers, with steps as simple as wearing a 
seat belt, and goes on from there to involve stakeholders in both the 
public and private sectors. We need to do a much better job of 
informing those who are unaware of this major public health issue, and 
working collaboratively with those who are aware, to bring the death 
toll down. Public awareness campaigns and active partnerships with 
State and local safety programs that provide comprehensive approaches 
to safety are very important. We also need the leadership of our 
decisionmakers to emphasize the importance of improving safety and to 
provide direction for future efforts.
    We have another important challenge to overcome in combating this 
National safety ``epidemic.'' A more comprehensive and strategic 
approach to highway safety is needed to allow Federal, State, and local 
safety programs to use the tools, practices and insights that will save 
the most lives. Better safety data is needed to help safety 
organizations identify their State's or community's most significant 
safety needs and the areas with the highest safety payoffs. At the 
Federal level, we can provide the flexibility for a comprehensive and 
strategic approach to safety, based on better crash data systems and 
the use of a wider range of resources, tools, and effective practices.

    Question 4. Will the Administration's reauthorization proposal 
propose that any of the program funding not currently distributed by 
formula be distributed by formula?
    Response. The Administration's reauthorization bill has not yet 
been finalized, pending resolution of remaining comments that developed 
during the inter-agency clearance process. Until the content of the 
bill is finalized, we are unable to provide a definitive response to 
this question. However, we are making every effort to expedite 
completion of the bill, and look forward to discussing our proposal 
with you as we continue to work together through the reauthorization 
process.

    Question 5a. How important are Intelligent Transportation Systems 
to enhancing mobility? What success has been achieved to date as a 
result of ITS projects?
    Response. Intelligent Transportation Systems are essential to 
enhancing mobility as demand for highway travel by Americans continues 
to grow as population increases. Construction of new highway capacity 
to accommodate this growth in travel has not kept pace. Between 1980 
and 1999, route miles of highways increased 1.5 percent while vehicle 
miles of travel increased 76 percent. The Texas Transportation 
Institute estimates that, in 2000, the 75 largest metropolitan areas 
experienced 3.6 billion vehicle-hours of delay, resulting in 5.7 
billion gallons in wasted fuel and $67.5 billion in lost productivity. 
Traffic volumes are projected to continue to grow. The volume of 
freight movement alone is forecast to nearly double by 2020.
    The ITS Program has seen a broad number of successes related to the 
deployment of ITS systems and the benefits provided by those systems. 
The U.S. Department of Transportation's Joint Program Office for 
Intelligent Transportation Systems (ITS JPO) has been actively 
collecting such information from evaluations of implemented ITS 
initiatives in order to understand the impact of ITS on the operation 
and safety of the surface transportation network, and to share lessons 
learned from past implementations with other U.S. cities and States 
considering the implementation of ITS. The following are some examples 
drawn from studies summarized in the database:
    <bullet> In September of 2000, the New Jersey Turnpike Authority 
(NJTA) completed their evaluation of the E-ZPass electronic toll 
collection system. Toll plaza delay was reduced by approximately 85 
percent for a total savings of 2,091,000 vehicle-hours per year. 
Passenger car delay was reduced by 1.8 million hours per year; truck 
delay was reduced by 291,000 hours per year. Sixty-five percent of this 
benefit, or 1,344,000 vehicle-hours, was time saved by travelers with 
E-ZPass, while the remaining 35 percent of the benefit was the 747,000 
vehicle-hours saved by other motorists using the toll facilities. There 
were corresponding reductions in energy consumption and harmful 
emissions.
    <bullet> In the spring of 2000, a transit signal priority system 
was implemented on a 2.1 mile section of Rainier Avenue in King County, 
Washington. The King County DOT found the system decreased bus travel 
time variability by 35 percent and reduced the number of signal-related 
stops by 50 percent for buses with signal priority.
    <bullet> In Minneapolis-St. Paul, Minnesota, freeway traffic 
performance was measured with and without the use of ramp meters. 
During the 6-week shutdown of the ramp metering system there was a 28 
percent increase in freeway travel time, a 7 percent reduction in 
freeway speeds, a 14 percent reduction in peak period throughput, and a 
26 percent increase in peak period crashes on the freeways.
    When the ability to add new roadways is constrained, 21st century 
operations enabled by the 21st century technologies of ITS are key to 
enhancing mobility and relieving congestion in America.
    We also want to note that our sister agency, the National Highway 
Traffic Safety Administration (NHTSA), is providing a lead role in the 
Department-wide ITS initiative administered by the ITS Joint program 
office. NHTSA is working closely with the vehicle manufacturers to 
advance the availability of crash avoidance technologies on vehicles. 
These technologies are designed to assist drivers under hazardous 
situations and to help them avoid impending crashes.

    Question 5b. How does ITS help homeland security readiness?
    Response. A major objective of homeland security readiness is being 
ready to respond to and recover from an attack on the Nation. Whether 
or not the attack directly strikes the transportation infrastructure, 
transportation is always the method through which we respond, and by 
which we work during recovery. ITS has a critical role in enabling us 
to respond and recover effectively. ITS can provide instantaneous 
detailed information and the capability to manage the surface 
transportation network during the crisis. Thus, it facilitates the 
ability of our responders such as police, fire, and hazardous materials 
and emergency medical personnel, to reach the scene quickly, and with 
the greatest knowledge about the scene. It also facilitates our ability 
to get the ill and injured away from the scene, and possibly to get the 
larger community far enough away that they are no longer at risk. 
Similarly, historical traffic flow data from ITS systems provide 
important input to the process of planning for disasters. Quality 
plans, accurately reflecting transportation capabilities and needs, are 
essential to readiness. The same traffic data also provides the basis 
for ``What-if '' analysis, making those emergency management plans 
flexible so that they can deal with a broad range of hazards, and can 
handle the many locations where a disaster might strike.

    Question 6. Your reauthorization proposal would link highway 
program funding levels for each year to the current projections of 
Highway Account receipts for that same year, rather than the method 
under TEA-21 which linked funding to prior year receipts.
    How exactly would that work? When would the projections be made? 
Would they be able to be revised and how would this affect highway 
spending in a given year?
    What will the Administration propose to avoid the drastic 
fluctuations in highway spending such as that which occurred last year 
as a result of a negative RABA calculation?
    Response. The Administration's reauthorization bill has not yet 
been finalized, pending resolution of remaining comments that developed 
during the inter-agency clearance process. Until the content of the 
bill is finalized, we are unable to provide a definitive response to 
this question. However, we are making every effort to expedite 
completion of the bill, and look forward to discussing our proposal 
with you as we continue to work together through the reauthorization 
process.

    Question 7a. Your proposal would add an additional $1 billion per 
year over the 6-year reauthorization period in obligation authority 
above estimated receipts. This essentially equates to a $1 billion per 
year spend down of the ``balance'' of the Highway Trust Fund.
    Would these extra billion dollars require the Federal Government to 
borrow more money to pay for this extra investment?
    Response. Borrowing would not be necessary. For the Federal-aid 
Highway Program, obligations do not translate immediately into outlays. 
Like other capital programs, the highway program outlays slowly. 
Obligations in excess of anticipated revenue will slowly decrease the 
balance in the Highway Account of the Highway Trust Fund. However, 
considering projected levels of income and obligation, we estimate that 
balance will be approximately $10 billion at the end of the 6-year 
reauthorization period. We consider this balance to be safe and 
prudent.

    Question 7b. How would the funds be distributed? What strings would 
be attached? What types of projects would benefit?
    Response. The Administration's reauthorization bill has not yet 
been finalized, pending resolution of remaining comments that developed 
during the inter-agency clearance process. Until the content of the 
bill is finalized, we are unable to provide a definitive response to 
this question. However, we are making every effort to expedite 
completion of the bill, and look forward to discussing our proposal 
with you as we continue to work together through the reauthorization 
process.

    Question 8. Other than depositing all of the Federal excise tax 
collected on ethanol-blended fuels into the Highway Trust Fund, which I 
strongly support, does the Administration support any additional 
measures to increase revenues?
    Response. The Administration will not propose any increases to the 
highway-related excise taxes that are deposited in the Highway Trust 
Fund. It will, however, continue its support for improved fuel tax 
collection efforts.

    Question 9. How has FHWA streamlined the delivery of transportation 
projects in the absence of regulations implementing the environmental 
streamlining provisions contained in TEA-21? What will the 
Administration be including in its reauthorization proposal to 
streamline the environmental review process?
    Response. FHWA has pursued a multi-faceted strategy for 
implementing environmental streamlining in the absence of regulations. 
As directed in the Fiscal Year 2003 DOT Appropriations Act, FHWA 
submitted to Congress on April 11, 2003, a report on Environmental 
Streamlining accomplishment. This report discusses the actions taken 
under Executive Order 13274 and FHWA's Vital Few Goals effort to raise 
visibility and create a sense of urgency for environmental 
streamlining, solidify interagency partnerships, reengineer the 
environmental review process, issue guidance to enhance process 
predictability, evaluate the performance of environmental streamlining, 
institutionalize dispute resolution, support State environmental 
streamlining efforts, and share information on best practices.
    The details of the Administration's reauthorization proposal in the 
environmental streamlining area have not yet been finalized.

    Question 10a. Last year the Transportation Research Board completed 
its study of the effectiveness of the Congestion Mitigation and Air 
Quality Program (CMAQ).
    Has FHWA reviewed the report? Are there any findings in the report 
that you especially believe would inform the debate on whether to make 
changes to the program in the reauthorization bill?
    Response. The CMAQ study was released in April 2002. Under the 
National Academies of Sciences (NAS), the Transportation Research Board 
(TRB) prepared a comprehensive and detailed report chronicling the 
program's first ten years. We have reviewed the report with 
considerable interest and continue to do so. We regularly use the 
research and the valuable support information it carries.
    The FHWA is committed to improving the CMAQ program, through 
legislative or other means. We have reviewed the TRB study with such 
enhancement of CMAQ in mind. For example, we agree that CMAQ has value 
and should be continued and that air quality improvement should remain 
its primary focus. The exact changes that will be contained in the 
Administration's proposal for reauthorization have not been finally 
decided, but will likely address many of the report's recommendations. 
Our thoughts on the rest of the NAS recommendations are provided below.
    Interagency Consultation. As noted in the NAS report, we have 
encouraged interagency consultation, under our current CMAQ Program 
Guidance, in the project selection process and many areas have 
responded by including State and local air pollution control officials 
in project selection. In the interests of local flexibility and 
decisionmaking, we have not required any specific make-up of these 
local project selection committees.
    All Pollutants/New Air Standards. The report specifically notes the 
new data showing fine particulates (PM<INF>-2.5</INF>) as having 
serious human health impacts. That is our understanding as well. The 
current focus of the program is on those EPA-regulated pollutants that 
can be affected by transportation-related measures. While EPA has not 
yet designated any areas as being in nonattainment of its new standard 
for fine particulate matter or under the 8-hour ozone standard, there 
may well be justification for including these areas in the CMAQ 
apportionment formula. Failure to do so could restrict funding in 
States whose nonattainment populations have grown substantially.
    Other pollutants suggested in the NAS report may not be as 
applicable to mitigation under the CMAQ program. For example, 
transportation contributes just 2 percent to sulfur dioxide, and no 
standards have yet been set for air toxics. As such, it may not be 
worthwhile to pursue funding for SO<INF>2</INF> reduction since 
transportation sources represent such a small component of total 
SO<INF>2</INF>. Similarly, without standards and nonattainment 
designations, we may not be able to target control strategies and areas 
to address air toxics in reasonable ways.
    Scrappage Programs. The report specifically mentions vehicle 
scrappage programs, which are statutorily ineligible under current law, 
as well as public-private projects, diesel programs and freight, all of 
which are eligible and have been funded by the CMAQ program. With the 
exception of scrappage programs, it is not clear what else might be 
funded under the program that is not already eligible.
    Support for Operations. The use of CMAQ funds for operational 
support is being evaluated by the Department to determine whether 
eligibility for such funding should be continued and, if so, for how 
long. The use of CMAQ for operations must be considered very carefully 
because CMAQ funds are used for transit projects, inspection and 
maintenance programs, as well as highway projects, and the combined 
operational needs of transit operators and the State and local highways 
agencies is about $32 billion annually, many times larger than the $1.8 
billion of CMAQ funding apportioned to the States in FY2002. In further 
discussions with the NAS panel, it is clear that this recommendation 
carried the requirement that further air quality benefit be 
demonstrated. We are not sure that such a demonstration can be made 
under existing EPA procedures since operating support does not yield 
further emission reductions toward attainment. Our CMAQ guidance has 
allowed CMAQ funds to be used for operations for 3 years after the 
initiation of a new activity that benefits air quality. After a 3-year 
startup period, we expect ongoing operations to be funded from other 
sources, so as to free-up CMAQ funding for initiating new, beneficial 
air quality projects, rather than being tied up in perpetuity for 
maintaining an ongoing level of operations.
    Land Use. The NAS panel recommended that we consider the use of 
CMAQ funds for land use strategies leading to long-term reduction in 
future mobile source emissions. But as also noted in the report, the 
potential for land use strategies to reduce congestion or vehicle 
emissions is complex and unclear. An important consideration is that 
CMAQ funding is derived from the Highway Trust Fund and must be used 
for ``transportation'' projects that assist attainment. Some land use 
strategies may not be reasonably considered transportation. Those that 
are, may already be eligible for CMAQ funding. At least one proposal 
for transit-oriented development has been determined to be eligible for 
CMAQ support. Further, it may be difficult to demonstrate an emission 
reduction that assists attainment of the standards.
    Project Selection. The panel recommended that we develop more 
rigorous procedures for selection and evaluation of CMAQ projects in 
the context of local air quality and congestion problems. While we 
support performance-based approaches, there is concern about balancing 
the needs of the local decisionmakers against the strictures of a 
federally required project evaluation and selection process.
    Project Evaluation. Finally, the NAS provided two recommendations 
to encourage more evaluations of funded projects by States and 
localities, and to undertake a national level, targeted program of 
evaluation. We will currently allow CMAQ funds to be used for 
evaluation purposes of a CMAQ-funded project. We even require it for 
experimental pilot projects. We are evaluating just how something more 
might be accomplished. One of the problems is that a high quality 
evaluation, including before and after studies, can cost as much as the 
transportation improvement being evaluated according to a recent NCHRP 
report. State and local jurisdictions might prefer to spend that money 
doing another project.
    We find the recommendation for a national level evaluation program 
to be an interesting prospect. The CMAQ program has funded more than 
$11 billion thus far; some funding might be justified to make sure that 
the program investment is optimized. It seems unlikely that State and 
local programs will have the ability to undertake such a program and 
the Federal Government may be the only entity that could provide such 
assessments and disseminate the results nationally.

    Question 10b. Will your reauthorization proposal propose changes to 
the CMAQ program? If so, what changes are you proposing?
    Response. Regarding any recommended changes to the program, as 
mentioned above, our proposal remains in development.

    Question 11. Will you be proposing any changes to conformity and 
transportation planning? Do you think any reforms are necessary? Have 
you been working with EPA on these issues?
    Response. The Administration is still in the process of finalizing 
its legislative proposal. FHWA is committed to continuing the progress 
made over the last thirty years in reducing motor vehicle emissions and 
supports the goals of the Clean Air Act's transportation conformity 
provisions. However, we also recognize that additional improvement in 
the coordination of the transportation and air quality planning 
processes can be achieved. Some stakeholders indicate that there remain 
opportunities to improve the transportation conformity process. They 
cite the fact that transportation plans and SIPs are not synchronized 
with one another due to different planning horizons and update 
frequencies.
    Although final decisions have not been made on approaches to 
address the conformity and transportation issues in the Administration 
reauthorization proposal, FHWA has been in consultation with EPA on the 
formulation of final positions on specific transportation conformity 
issues.

    Question 12. How does FHWA's budget and reauthorization proposal 
promote intermodalism? How important is intermodalism to the Nation's 
transportation system and economic viability?
    Response. Intermodalism is a public policy theme expressed in both 
the Intermodal Surface Transportation Efficiency Act (ISTEA) of 1991 
and the current authorizing legislation, the Transportation Equity Act 
for the 21st Century (TEA-21). The U.S. freight transportation network 
moves a staggering volume of goods and people each year. It is a 
necessity, not a luxury.
    Over 15 billion tons of goods, worth more than $9 trillion, were 
moved in 1998. Trucks carried about 71 percent of the tonnage and 80 
percent of the total value. In 2020, the U.S. system is expected to 
handle almost 26 billion tons valued at nearly $30 trillion. That is 
roughly a 70 percent increase in tons and much more than a doubling in 
value.
    No one mode of transport will be able to accommodate the 
anticipated growth of freight tonnage. If a State doesn't have good 
transportation, it is less competitive. If the United States doesn't 
have a strong transportation system, we are less competitive in a 
global economy. In many cases, the demand for trucking along corridors 
that expect significant growth will place additional burdens on States 
and communities striving to support both freight movement while 
improving safety and community liveability.
    Perhaps we have been too successful. The system has been so 
reliable that many businesses depend on just-in-time delivery. But 
congestion, delayed infrastructure repairs, and other factors threaten 
the system and add cost. Excess travel time costs freight carriers 
between $144 and $192 an hour.
    The Administration understands these issues. Therefore, intermodal 
improvements are an important part of our surface transportation 
emphasis for 2004 and out years. We are encouraging States to use 
innovative financing methods and core program funds to address 
intermodal improvements within freight gateways and to the 
transportation infrastructure that connects these gateways to the 
Nation's mainline transportation networks.
    For example, proposed investment of $47 million in fiscal year 
2004, for cross-border safety inspection infrastructure at our southern 
international borders, will not only address highway safety and 
national security concerns, but should improve the flow of freight at 
border chokepoints. This investment will be the last year of a 3-year 
effort totaling $150.3 million.
    Every modal administration within the U.S. Department of 
Transportation is working on improving linkages and connectivity to 
other modes so that the traveling public, as well as freight carriers, 
can more efficiently reach their destinations. The Administration's 
reauthorization bill has not yet been finalized, pending resolution of 
remaining issues that developed during the inter-agency clearance 
process. Until the content of the bill is finalized, we are unable to 
provide a definitive response to this question. However, we are making 
every effort to expedite completion of the bill, and look forward to 
discussing our proposal with you as we continue to work together 
through the reauthorization process.
    While the focus of FHWA's intermodal efforts are in the area of 
more efficient freight movement, our fiscal year 2004 Intelligent 
Transportations Systems (ITS) Program budget does contain a significant 
transit component. In fiscal year 2004 we proposed a $7 million Transit 
ITS Program that would focus on passenger security, integrated transit 
system operations, coordination of public transportation delivery, and 
electronic fare payment.

    Question 13. Should the States have more or less flexibility to use 
their Federal highway funds to meet their own unique transportation 
needs?
    Response. The highway program should be focused on solving 
transportation problems and, as such, should eliminate barriers, expand 
flexibility, and free State and local officials to solve problems by 
applying the right solutions to their particular area, while remaining 
mindful of important national goals. Increased flexibility will require 
increased accountability.

    Question 14a. As a member representing one of the 13 member States 
of the Appalachian Regional Commission, I am very interested in 
addressing the remaining cost to complete the Appalachian Development 
Highway System, which is estimated to cost $4.5 billion. What does 
FHWA's budget provide for the Appalachian Development Highway System 
and what will be included for the system in the reauthorization 
proposal?
    Response. The Administration's reauthorization bill has not yet 
been finalized, pending resolution of remaining issues that developed 
during the inter-agency clearance process. Until the content of the 
bill is finalized, we are unable to provide a definitive response to 
this question. However, we are making every effort to expedite 
completion of the bill, and look forward to discussing our proposal 
with you as we continue to work together through the reauthorization 
process.
    The Federal Highway Administration has worked very closely with the 
Appalachian Regional Commission and the State Departments of 
Transportation to develop a new cost-to-complete estimate for the 
Appalachian Development Highway System (ADHS). Since these State-by-
State estimates are the basis of apportioning the funds among the 
Appalachian States, they will enable the apportionment of funding to be 
more accurately distributed according to remaining needs.
                               __________
 Responses of Mary Peters to Additional Questions from Senator Jeffords
    Question 1. Please compare the funding proposed for CMAQ in the 
administration's fiscal year 04 Budget with that appropriated by 
Congress for the program for fiscal year 2003. How do the two numbers 
compare? Please explain any proposed change in program funding.
    Response. Our draft proposal remains in development. Discussion of 
fiscal year apportionments is ongoing, and any detailed discussion of 
these estimates would be premature. However, the President's budget for 
fiscal year 2004 anticipates a decline in CMAQ funding. Despite a 
decrease in this single year, we anticipate that the funding for the 
CMAQ Program will grow consistent with the growth in the other core 
highway programs fiscal year 2004-fiscal year 2009. We expect that this 
very temporary drop in annual CMAQ resources will be more than offset 
over the life of our proposal.

    Question 2. Please describe the resources, guidance, and funds that 
DOT will use and provide to the States and communities in fiscal year 
2004 for ensuring that they will be prepared to demonstrate timely 
transportation conformity in the event of possible new nonattainment 
designations under the 8-hour ozone and fine particulate matter 
standards.
    Response. DOT and EPA have worked closely in providing technical 
assistance to areas to address conformity and transportation air 
quality issues. In anticipation of the number of new areas designated 
nonattainment for the first time that have no previous conformity 
experience, DOT has embarked on a number of activities to prepare areas 
for this challenge:
    1. Revise transportation conformity regulations--DOT is working 
closely with EPA as they revise their conformity rule for the 
implementation of the new ozone and fine particulate standards. Their 
goal is to complete the rulemaking process before April 15, 2004, the 
anticipated date upon which EPA will finalize the new ozone 
nonattainment designations. We believe this will allow newly designated 
nonattainment areas to fully utilize the 1-year conformity grace period 
in meeting conformity requirements.
    2. Continue existing training courses--DOT has developed a well-
received basic transportation conformity training course. The course 
was offered 6 times during fiscal year 2002. The course offerings were 
attended by about 230 people representing both public (Federal, State, 
and local governments) and private sectors of both transportation and 
air quality disciplines. In fiscal year 2003 and fiscal year 2004, DOT 
anticipates offering this training course through the National Transit 
Institute in about 10 cities. A number of workshops and tailored 
seminars also have been provided by our field resource centers, 
primarily focusing on emissions modeling, transportation conformity, 
and the CMAQ program. In addition, FHWA will continue to provide 
training in MOBILE6, EPA's current emissions factor model, in fiscal 
year 2004.
    3. Provide new training opportunities--FHWA's National Highway 
Institute will be launching 2 new training courses in fiscal year 2004 
which will be very helpful to areas in preparing for their conformity 
analysis. (a) Estimating Regional Mobile Source Emissions and (b) The 
Implication of Air Quality Planning on Transportation.
    4. In May 2002, FHWA launched a Transportation Conformity Community 
of Practice (CoP) website to allow for sharing of best practices, free 
exchange of ideas and discussions on topics related to conformity among 
practitioners. The CoP website can be accessed at: http://
www.fhwa.dot.gov/environment/aqupdate/index.htm
                                 ______
                                 
  Report to Congress on Federal Highway Administration Environmental 
                  Streamlining Activities During 2002
               Federal Highway Administration, April 2003
                           executive summary
    This report responds to the Congressional direction contained in 
the report accompanying the Consolidated Resolutions Appropriations, 
2003, P.L. 108-7, Division I, the Department of Transportation and 
Related Agencies Appropriations, 2003. The conference report language 
is contained at page 1262 of House Report 108-10. It states, ``FHWA 
streamlining--The conferees direct the Federal Highway Administration 
(FHWA) to provide the House and Senate Committees on Appropriations a 
report, not later than April 15, 2003, summarizing FHWA's streamlining 
efforts, as proposed by the House. The report should include specific 
examples of FHWA activities that help streamline the environmental 
process.''
    The Federal Highway Administration pursued a multi-faceted strategy 
for implementing environmental streamlining during 2002. This report 
summarizes accomplishments in the following areas:
    <bullet> Raising visibility and creating a sense of urgency,
    <bullet> Solidifying interagency partnerships,
    <bullet> Reengineering the environmental review process,
    <bullet> Issuing guidance to enhance process predictability,
    <bullet> Evaluating the performance of environmental streamlining,
    <bullet> Institutionalizing dispute resolution,
    <bullet> Supporting State environmental streamlining efforts,
    <bullet> Sharing information on best practices,
    <bullet> Rulemaking.
    A particularly important development during 2002 was President 
Bush's issuing Executive Order 13274, ``Environmental Stewardship and 
Transportation Infrastructure Review.'' This executive order and the 
followup implementation efforts have created a new energy among the 
Federal agencies involved in environmental streamlining for 
transportation projects. The Federal Highway Administration has taken a 
major role in the interagency task force created by the executive 
order. This new venue promises to be an effective tool for forging 
ahead together on a broad agenda of environmental streamlining and 
environmental stewardship initiatives.
                              introduction
    As directed in the report accompanying the Department of 
Transportation and Related Agencies Appropriation Act, 2003, the 
Federal Highway Administration submits this status report on 
environmental streamlining to the Congress.
    During 2002, the Federal Highway Administration pursued 
environmental streamlining on multiple fronts. While building on 
earlier efforts to advance a broad based interagency agenda, FHWA also 
took aggressive steps to heighten the visibility of environmental 
streamlining and to create a specific performance based set of 
expectations for implementing environmental streamlining. Of particular 
note are (1) the issuance of a new executive order addressing 
environmental streamlining and FHWA's role in its implementation and 
(2) the development of a targeted performance-based agenda on 
environmental stewardship and environmental streamlining as part of 
FHWA's Vital Few Goals effort. The following sections of this report 
provide details on these and other efforts to advance environmental 
streamlining.
           raising visibility and creating a sense of urgency
    Executive Order. On September 18, 2002 President Bush signed 
Executive Order 13274, ``Environmental Stewardship and Transportation 
Infrastructure Project Review.'' This executive order establishes an 
interagency task force to explore environmental stewardship 
opportunities, improve environmental review processes, and oversee 
specific projects on a priority list selected by the Secretary of 
Transportation. The executive order is multimodal in scope and has a 
strong positive effect on environmental streamlining for the highway 
program. FHWA was an active participant in the discussions that led to 
the issuance of the executive order and has taken a lead role in 
implementing many of the activities under the executive order. The 
executive order has raised the visibility of environmental streamlining 
among high-level officials in the executive branch agencies. This 
raised visibility is evidenced by reports from the interagency task 
force agencies that environmental streamlining in transportation 
projects has been placed as an on-going agenda item for executive and 
senior staff and they are actively seeking ways to promote program 
efficiencies in the field.
    The Department of Transportation has thus far convened an 
organizing meeting for the interagency task force (on November 22, 
2002) and two regular meetings (January 30, 2003 and March 4, 2003). 
Progress to date has focused on selection and oversight of projects on 
the priority list. Secretary Mineta selected 13 projects for the 
priority list; of these 10 are highway projects. Designation of these 
projects has already begun to create a greater sense of urgency among 
field staff of the various agencies to resolve outstanding issues. 
Further details on the executive order and implementation activities 
can be found at www.fhwa.dot.gov/stewardshipeo/eo13274.htm.
    FHWA Vital Few Goals. In conjunction with FHWA's performance 
planning efforts under the Government Performance and Results Act, FHWA 
Administrator Mary Peters launched an effort that identified and 
articulated Vital Few Goals, priority areas for FHWA action on a 
nationwide basis. Environmental stewardship and environmental 
streamlining is one of the three Vital Few Goals. During 2002, FHWA 
developed a specific set of agencywide performance expectations for the 
environmental stewardship and environmental streamlining Vital Few 
Goal. These performance expectations focus on improving the quality and 
timeliness of the environmental review process and on clearly 
demonstrating environmental stewardship accomplishments. For example, a 
study of the timetable for environmental reviews was conducted in 2002 
and a followup assessment will continue in 2003. FHWA has put in place 
a process for generating and monitoring project schedules to keep 
projects moving and on track for timely completion. More information on 
this effort is available at www.fhwa.dot.gov/environment/strmlng/
essovervw.htm.
                  solidifying interagency partnerships
    Executive level interagency task force. The interagency task force 
created under Executive Order 13274 has provided for the first time a 
continuing forum for engaging executive representatives of the Federal 
agencies most involved in environmental streamlining. While the focus 
of the task force's work so far has been oversight of the designated 
priority projects, the task force has begun crafting a broader agenda 
that also looks at systemic changes in environmental review policies 
and procedures and at environmental stewardship opportunities. FHWA has 
played a prominent role in the review of nominated projects for 
selection by the Secretary, in the management of selected projects and 
in shaping the agenda for the interagency task force.
    National environmental streamlining action plan. Working through a 
staff level Federal interagency workgroup, in 2002 FHWA developed a 
national action plan which outlines activities to streamline 
environmental initiatives including: expedited reviews, flexible 
mitigation, cross-training, evaluation measures, and dispute 
resolution. The items on the action plan will lead to reduced 
timelines, improved interagency coordination, enhanced environmental 
outcomes, and cost savings. The action plan is available at www. 
fhwa.dot.gov/environment/strmlng/actionplan2.htm.
    Field level environmental summits. The FHWA Eastern, Southern, and 
Western Resource Centers held regional conferences in 2002, bringing 
together representatives from Federal, State, and local transportation, 
planning, and resource agencies, local governments, Metropolitan 
Planning Organizations (MPOs), transportation and environmental 
organizations, tribes, and consultants to discuss relevant issues and 
identify opportunities for improvement. Results of the summits were 
distributed via the Successes in Streamlining Monthly Newsletter 
(September 2002). The sharing of solutions and integration of efforts 
found within each regional conference advances streamlining through an 
emphasis on process improvements.
    Interagency training on environmental streamlining. The Federal 
interagency workgroup has collaborated in organizing a series of 
environmental streamlining workshops aimed at getting field staff of 
each Federal agency aligned with the national agenda. FHWA sponsored 
the U.S. Army Corps of Engineers workshop held in September 2001, the 
Environmental Protection Agency workshop in December 2002, and a 
combined Fish and Wildlife Service and National Marine Fisheries 
Service workshop to be held in May 2003. These workshops have been a 
good forum for sharing the national vision, identifying issues that 
cause interagency conflict, and sharing innovative practices from 
around the country. Furthermore, they have promoted the concepts of 
coordination and process efficiencies in the environmental review of 
transportation projects.
             reengineering the environmental review process
    Nationwide Section 4(f ) evaluation. FHWA and the Federal Transit 
Administration published for comment in the Federal Register on 
December 18, 2002 a proposed nationwide Section 4(f ) evaluation for 
net benefits. Once finalized, this will allow for expedited processing 
of situations in which the transportation agency and official with 
jurisdiction over the Section 4(f ) property can agree that the 
proposed mitigation package actually results in a net benefit to the 
property. This will lead to enhanced environmental and cultural 
resource outcomes while reducing environmental review times.
    U.S. Coast Guard exemption from Section 4(f ). FHWA worked with the 
U.S. Coast Guard to review changes in agreements, policies, and 
operating procedures brought about by the Coast Guard's move to the 
Department of Homeland Security. While most of the processes will 
remain unchanged, the Coast Guard has determined that Section 4(f ) 
will no longer apply to bridge permits issued by the Coast Guard. The 
Coast Guard Office of Bridge Administration has notified Coast Guard 
district offices of this change and has developed a transition 
strategy.
    Ohio programmatic Section 4(f ) evaluation. Ohio is the only State 
that has implemented a Section 4(f ) programmatic evaluation that 
allows the State transportation agency (ODOT) to decide whether 
programmatic Section 4(f ) evaluations apply to projects. The FHWA Ohio 
Division, which retains its legal Section 4(f  authority, will receive 
and may review each ODOT decision. Finalized in September 2002, the 
Ohio DOT has recently conducted the in-house training needed to make 
the new process fully operational. The FHWA-ODOT Section 4(f ) 
programmatic evaluation has been estimated to save the FHWA Ohio 
Division 80 hours of staff time per project, which can be used to 
monitor the Section 4(f ) process and conduct Section 4(f ) training. 
It has also resulted in reduced project delivery time for ODOT. If 
successful, FHWA will promote it as a model for other States.
    Kentucky historic preservation programmatic agreement. Kentucky 
FHWA, following the lead of a successful Vermont programmatic 
agreement, has entered into a similar programmatic agreement with the 
Kentucky Transportation Cabinet (KYTC), the State Historic Preservation 
Officer and the Advisory Council on Historic Preservation. This 
agreement sets out the coordination responsibilities for all parties 
and delegates most of the day-to-day activities for Section 106 
consultation to the KYTC. The programmatic agreement streamlines the 
Section 106 process by giving KYTC the primary authority to identify 
historic properties and assess effects, thus reducing the time required 
for multiple agency review and sign-offs.
           issuing guidance to enhance process predictability
    Reimbursement of Resource Agencies. Through the active 
encouragement and participation by FHWA, many State DOTs are using 
interagency funding agreements to hire additional staff at State and 
Federal resource agencies. On February 26, 2002, FHWA issued guidance 
on funding eligibility, model agreements, and ensuring accountability. 
This guidance, titled ``Interagency Guidance: Transportation Funding 
for Federal Agency Coordination Associated with Environmental 
Streamlining Activities'' can be found at www.fhwa.dot.gov/environment/
strmlng/igdocs/index.htm.
    Interagency staff funded in accordance with this guidance are 
dedicated to reviewing transportation projects and making permit 
decisions. As of August 2002, over half of all State DOTs fund or 
provide over 160 dedicated transportation positions nationwide. 
According to some reports, funded positions have had a measurable 
impact in reducing the time it takes to complete environmental reviews 
on specific projects, while helping State DOTs develop quality 
transportation and environmental solutions at less cost. In South 
Carolina, for example, the U.S. Army Corps of Engineers review of 
Section 404 permits was reduced by 30 percent for most projects, and 
State Historic Preservation Office Section 106 review time was reduced 
from 30 to 7 days for most projects.
    Interagency collaboration and conflict management. On December 31, 
2002 FHWA issued guidance on interagency collaboration methods. This 
guidance, ``Collaborative Problem Solving: Better and Streamlined 
Outcomes for All,'' is one element of FHWA's national dispute 
resolution system and presents strategies for interagency collaborative 
problem solving by identifying issues that may arise during the 
transportation project development and environmental process reviews 
under the National Environmental Policy Act (NEPA) and related laws. 
The guidance document can be found at http://nepa.fhwa.dot.gov/ReNepa/
ReNepa.nsf/.
    Indirect and cumulative effects. On January 31, 2003 FHWA issued 
interim guidance that focuses attention on the existing NEPA 
requirements specific to indirect and cumulative impacts and represents 
an initial step in FHWA's overall strategy to address the indirect and 
cumulative impacts policy, guidance, and training needs of the agency. 
The guidance serves as an information tool for both FHWA Divisions and 
State DOTs and will lead to an increased understanding and improved 
efficiency by assisting them in negotiating reasonable bounds on impact 
analyses with resource agencies. The interim guidance is at 
www.fhwa.dot.gov/environment/guidebook/qaimpactmemo.htm.
        evaluating the performance of environmental streamlining
    Study of Timeliness of EISs since the Passage of NEPA. FHWA has 
supported two major inquiries into the question of ``How long does the 
environmental process for transportation projects take?'' The first, 
entitled ``Evaluating the Performance of Environmental Streamlining: 
Development of a NEPA Baseline for Measuring Continuous Performance,'' 
examined the durations of 100 transportation projects from the 1970's, 
1980's, and 1990's, measured from the start of the environmental 
process to the completion and approval of each project's Final 
Environmental Impact Statement. For these 100 projects, the average 
length of time for preparing an EIS pursuant to NEPA was 3.6 years 
(approximately 43 months). The study report is available at 
www.fhwa.dot.gov/environment/strmlng/baseline/index.htm.
    Following the above ``Baseline Study,'' a second investigation was 
conducted, and is currently in its concluding stages. This ``phase II'' 
study examined over 240 transportation projects from across the country 
whose EISs were completed between the years 1995 and 2001. The study's 
preliminary results show an average time for EIS completion of 5.1 
years (approximately 61 months), or a gain of 18 months over the 
average time for the projects prepared examined in the initial Baseline 
Study.
    The ``phase II'' NEPA Baseline Study contains an examination of a 
number of variables effecting the NEPA EIS process for their impact to 
the process's delivery time. The results of this investigation are 
forthcoming.
    A collection of 8 case studies of projects that completed their 
EISs in less than 3 years has been completed as a presentation of a 
number of ``best practices'' that can contribute to an effective 
delivery of a project's NEPA process. The case studies will soon be 
available on the FHWA environmental streamlining website.
    Creation of an automated data system to track timeframes for EISs 
and EAs. FHWA developed and implemented an internal environmental 
document tracking system (EDTS) for Environmental Assessments (EA), and 
Environmental Impact Statements (EIS) to support FHWA's environmental 
streamlining performance expectations under the Vital Few Goals. EDTS 
will aid FHWA's ability to monitor project progress between major 
milestones, and to accurately determine the total processing time from 
initiation of an EIS and EA to the approval of the final decision 
document. The system was implemented in 2002; data entry in each of the 
FHWA division offices is ongoing. The ability to accurately track the 
length of time required to complete the NEPA process is an essential 
component of the environmental streamlining performance measure and 
will assist FHWA identify some of the factors that may affect the 
efficiency of NEPA project delivery.
    Perception survey of transportation and environmental agency staff. 
FHWA has contracted with the Gallup Organization to conduct a survey of 
personnel in both transportation and resource agencies from around the 
Nation. The purpose of the survey is to ascertain the perceptions of 
key participants in the transportation project development process, 
and, by means of applying scientifically reliable and valid survey 
methods, explore how stakeholders in the process view the quality of 
the environmental work and services performed by their counterparts. 
The Gallup Organization will utilize its expertise in the field of 
survey research to: measure the performance of agencies involved in 
environmental streamlining in order to provide a benchmark for agencies 
to gauge their own performance and that of the project development 
process itself; and to focus on areas where improvement may be needed. 
The survey is partially complete; results are expected in the summer of 
2003.
                 institutionalizing dispute resolution
    Partnership with Institute for Environmental Conflict Resolution. 
The 1998 Environmental Policy and Conflict Resolution Act created IECR, 
which is part of the Morris K. Udall Foundation. IECR helps Federal 
agencies and other involved parties manage and resolve Federal 
environmental, natural resource, and public lands disputes by providing 
services such as case consultation, conflict assessment, process 
design, facilitation, and mediation. More information on IECR can be 
found at their web site at www.ecr.gov.
    FHWA partnered with IECR to meet the mandate set forth in Section 
1309(c) of TEA-21 to create dispute resolution procedures as part of a 
national environmental streamlining initiative. FHWA and IECR have been 
working effectively together since 1999 to develop and implement the 
four components of the dispute resolution system, described below. The 
dispute resolution system is intended to assist the agencies to quickly 
and effectively focus on the pertinent project issues, save time, and 
avoid the costs of potential litigation.
    Roster of qualified neutral facilitators. As part of the FHWA/IECR 
collaborative partnership, a transportation roster was created that is 
comprised of dispute resolution professionals with experience in NEPA 
and transportation projects. The roster is managed by the U.S. 
Institute for Environmental Conflict Resolution, with financial support 
by FHWA to help cover administrative costs. These professionals can 
provide services such as conflict assessment, facilitation of 
interagency partnering agreements, design of conflict management 
processes, and mediation of disputes. Project sponsors contact IECR to 
access the transportation roster, and then negotiate contracts and pay 
for the costs of the transportation roster members' services directly. 
Recently, FHWA and transportation sponsors have used the transportation 
roster to provide facilitators for three of the priority projects 
designated under Executive Order 13274.
    Guidance on interagency conflict management. This FHWA guidance, 
described above under the ``guidance'' heading, offers a range of 
optional tools agencies can use to manage conflicts and resolve 
disputes during the transportation project development and 
environmental review processes. It also constitutes the key reference 
document used in the interagency workshops described below.
    Interagency conflict management workshops. The FHWA dispute 
resolution system includes a series of customized facilitated 
interagency workshops in each of the 10 standard Federal regions. The 
workshops were developed during 2002 and will be held from May to 
December 2003. Skills gained at the workshops will help practitioners 
from the various agencies to better identify environmental review 
issues, negotiate timeframes and work through disagreements using 
interest based negotiating.
    Section 1309 elevation procedures. Based on recommendations from an 
IECR facilitated process, FHWA designed an elevation procedure to 
operationalize the dispute resolution provision of section 1309 of TEA-
21. Under the elevation procedure, the Governor, the FHWA Division 
Administrator or the FTA Regional Administrator may initiate the 
process of elevating disputes to the Secretary of Transportation. The 
elevation procedure is currently being finalized for issuance as a 
Department of Transportation order. A draft of the elevation procedure 
is at www.fhwa.dot.gov/environment/strmlng/npdjan22.htm.
          supporting state environmental streamlining efforts
    American Association of State Highway and Transportation Officials 
(AASHTO)'' Center for Environmental Excellence.'' AASHTO launched the 
Center in 2002 with technical and financial assistance provided by 
FHWA. The Center's mission is to assist AASHTO's member organizations 
with implementing environmental stewardship into their various 
practices and procedures, and promoting innovative streamlining of the 
project delivery process. AASHTO expects that the results of this 
assistance will be beneficial to State transportation agencies and also 
supportive of FHWA's work in protecting and enhancing the environment.
    Florida Department of Transportation's ``Efficient Transportation 
Decision Making (EDTM) Process.'' FHWA provided leadership, technical, 
and financial support to FDOT for use in continuing the development of 
this model for involving Federal and State agencies in the 
transportation development process. The EDTM process will link land 
use, transportation, and environmental resource planning through early 
and continuous agency, general public and Native American involvement 
in planning, project development, and environmental decisions. It uses 
the latest in information technology to facilitate timely comments from 
participating agencies and to maintain a record of coordination.
    Currently, the Master Agreement for the EDTM and a number of agency 
agreements have been, or are being, finalized. Several of the agency 
agreements have been co-signed by Florida's Secretary of 
Transportation, the FHWA Division Administrator, and the heads of the 
respective agencies. Materials in the form of guidance and procedural 
manuals are in the final stages of completion. Training in the EDTM for 
four of seven FDOT districts began in February 2003 and will be on 
going until all districts have completed the training course. The EDTM 
process is planned to begin implementation during the summer of 2003.
    North Carolina Department of Transportation's ``Ecosystem 
Enhancement Program (EEP).'' NCDOT, in partnership with the North 
Carolina Department of Environment and Natural Resources (DENR) and the 
U.S. Army Corps of Engineers (USACE) Wilmington District, is developing 
the EEP for the purpose of changing the way agencies consider and apply 
mitigation for impacts to wetlands throughout the State. FHWA has 
supported the development and implementation of the EEP.
    To date, EEP-related activities include the organization and 
creation of a ``core staff,'' as per agreement between NCDENR and 
NCDOT; continuing the development of methodologies for Watershed Needs 
Assessment and functional assessment for streams and wetlands; further 
development of elements of the EEP education/outreach plan, including 
the EEP web-page, newsletter, and the Policy-Process-Procedure manual.
    Kentucky Transportation Cabinet's ``Historic Preservation Work 
Group.'' During June of 2002, AASHTO, the National Council of State 
Historic Preservation Officers, the National Trust for Historic 
Preservation, and other stakeholders including FHWA convened a 
conference on Historic Preservation in Lexington, KY. A part of the 
conference's agenda was concerned with streamlining the historic 
preservation review process for transportation projects. As a result of 
this and other conference matters, a problem-solving historic 
preservation workgroup was established with the Kentucky Transportation 
Cabinet (KYTC) serving as the lead State. FHWA contributed funding to 
assist the KYTC in this role and staff to participate in the effort. 
The historic preservation work group has identified several issues for 
exploration, including the use of geographical information systems for 
the establishment of a national database for historic properties.
    Texas Department of Transportation's ``Environmental Streamlining 
Pilot Project for the I-69 Corridor Study.'' The I-69 Corridor Study is 
a priority corridor, identified as such in both the Intermodal Surface 
Transportation Efficiency Act (ISTEA) and the Transportation Equity Act 
for the 21st Century (TEA-21). The Texas portion of the corridor is 
also a priority project under Executive Order 13274. Approximately 
1,000 miles of the I-69 corridor are located within Texas, confronting 
a diversity of social, economic, and environmental issues. The Texas 
Department of Transportation (TxDOT) plans to concurrently advance 14 
independent segments of the Corridor through the project development 
decisionmaking process, each with a separate environmental impact 
statement.
    Because of the complexity of the concurrent project development 
process, FHWA has provided environmental streamlining funds for support 
and assistance of the Streamlining Pilot Project. TxDOT and FHWA, in 
collaboration with other Federal and State agencies, have been 
developing methodologies and practices for streamlining the 
transportation and environmental decisionmaking process for the 
Corridor projects. The products of the Pilot Project include the 
following materials, activities, and procedures:
    1. Geographic Information System (GIS) inventory of environmental 
resources--the baseline database is close to completion; when finished, 
baseline assessments for screening and prioritizing of resource 
concerns in the Corridor segments can commence.
    2. Establishing an Environmental Leadership Group--The Group's 
charge is to create an interagency scoping team whose purpose is 
identifying and ranking ecological resources across the State. The 
prioritization of these resources has led to increased collaboration 
among transportation and resource agencies in managing ecosystems. In 
the case of I-69, the Corridor Technical Advisory Committee and the 
Texas Parks and Wildlife Department have identified specific tracts of 
property for use as sites for planning and implementing mitigation for 
project--related impacts.
    3. Coordination with Stakeholders--Participation in the Pilot 
Project by various agencies and interested parties, including the 
Environmental Protection Agency, the Army Corps of Engineers, the Fish 
and Wildlife Service, and Native American groups, is an important 
element of the Project's success. Several funding agreements between 
these parties and FHWA/TxDOT have been prepared in coordination with 
and support of the I-69 Process Manual, a special document developed to 
guide the environmental review process for the 14 corridor EISs.
    Alaska Department of Transportation & Public Facilities' ``Habitat 
Connectivity GIS Database & Mapping.'' Habitat fragmentation caused by 
highway development is a serious concern in many parts of the United 
States. In the Pacific Northwest, for example, many critical habitat 
corridors coincide with major transportation facilities. Alaska's 
highways, while fewer in comparison to those in the Lower 48, are 
mostly two-lane with low traffic volumes. These types of highways 
generally place limited restrictions on the movement of large mammals. 
As traffic increases, these two-lane highways are being upgraded with 
wider shoulders, passing lanes, and additional driving lanes. These 
features can result in serious harm to wildlife by creating obstacles 
to migration.
    Working in conjunction with the U.S. Bureau of Land Management, the 
U.S. National Park, Fish & Wildlife, and Forest Services, the Alaska 
Departments of Natural Resources and Fish and Game, and the Alaska 
Railroad Corporation, the Alaska Department of Transportation & Public 
Facilities (ADOT&PF) is developing a geographical information system 
(GIS) database for use in mapping wildlife habitats. The database and 
habitat mapping will be used for assessing the potential effects of 
transportation projects (specifically the Parks Highway corridor) on 
habitat connectivity, and for addressing appropriate mitigation 
measures early in the project development process. FHWA has provided 
funding support for this application of technology for streamlining the 
transportation project development process.
    Montana Department of Transportation's ``Evaluation of Wildlife 
Crossing Structures on U.S. Highway 93, Phase I.'' The Montana 
Department of Transportation (MDOT) is conducting an evaluation of 
wildlife crossing structures and fencing along the U.S. 93 corridor 
located in the Flathead Indian Reservation. In partnership with the 
Confederated Salish and Kootenai Tribes (CSKT), the Western 
Transportation Institute (WTI) of Montana State University, and FHWA's 
Montana Division, MDOT will identify and evaluate the data related to 
pre- and post-construction highway impacts on resident fish and 
wildlife populations in and around the highway corridor. The purpose of 
the evaluation is to better manage measures for mitigating the highway 
facility's impacts to the corridor's wildlife resources. This will 
allow future mitigation discussions to be science based and will allow 
the parties to work together to develop the most cost effective 
mitigation packages.
    FHWA has provided funding and technical support to assist the 
funding of Phase I of the Evaluation. This phase is concerned primarily 
with pre-construction data collection and the finalization of the plan 
for the Evaluation. Among the on-going activities are the following:
    1. Partnering between MDOT personnel (research manager, district 
biologist), the CSKT tribal biologist, and the ecology/wildlife 
departments/GIS center of Montana State University, University of 
Montana, and Salish Kootenai College.
    2. WTI attendance at U.S. 93 Technical Design Committee meetings 
re: wildlife crossings and fencing design issues for use in a case 
study.
    3. Continued communication with MDOT maintenance crews (data 
collection on animal carcasses killed in collisions with vehicles.
    4. Continued development of motion- and heat-trigger photo 
monitoring techniques.
    5. Establishment of pre-construction field methods and development 
of handbook for field methods and protocols.
    Wyoming Department of Transportation's ``Geographic Information 
System Database on Material Sites.'' The Wyoming Department of 
Transportation's (WYDOT) Geology, Central Laboratory, and Contract & 
Estimates programs maintain three separate sets of information (in 
three different formats) regarding all of the gravel pits and quarries 
that WYDOT utilizes. This effort will unify the databases into one 
format that is also compliant with WYDOT's GIS format. Simplifying the 
access to gravel and quarry pit information is expected to improve the 
timely performance of analyses regarding the impacts of projects upon 
whatever resources (wetland, habitat, endangered species, 
archeological) may be located at particular proposed/existing pit area.
    Indiana Department of Transportation's ``Streamlining 
Initiatives.'' FHWA has partnered with Indiana Department of 
Transportation (INDOT) on various activities for implementing 
environmental streamlining techniques in INDOT's project development 
process. There are four separate streamlining activities:
    1. Development and presentation of a technology transfer workshop 
on stream and roadway design issues;
    2. Streamlining the issuance of the Sec. 404 Permit/401 
Certification for the I-70/Six-Point Rd. project;
    3. Preparation of a Wetland Banking Instrument (WBI) for a wetland 
restoration project;
    4. Preparation of an updated Public Involvement Procedures manual.
    In addition to actively partnering on this multi-faceted effort, 
FHWA has also contributed financially. The technology transfer workshop 
is scheduled for July 2003; the remaining activities are expected to 
issue products during the first half of 2003.
    Washington Department of Transportation's ``Environmental Permit 
Streamlining Act.'' In May 2001, Washington State passed the 
Environmental Permit Streamlining Act (EPSA), designed to reform 
transportation permitting by streamlining environmental permit 
decisionmaking. FHWA is a (non-voting) member of the Transportation 
Permit Efficiency and Accountability Committee (TPEAC), created by the 
Act to oversee the permit process. FHWA has provided funding assistance 
to help the Washington Department of Transportation (WsDOT) to 
implement various elements of the Act.
    WsDOT has engaged the natural resource agencies and State 
decisionmakers in order to work cooperatively to establish common 
goals, minimize transportation project delays, and develop consistency 
in the application environmental standards. Four projects have been 
proposed initially by WsDOT to begin the implementation of the EPSA; 
three of the projects fund the work of TPEAC subcommittees, while the 
fourth, ``Cost Benefit Information'', has been selected for its utility 
in developing performance measures critical to the TPEAC process. 
Progress on three of the projects is as follows:
    1. Watershed-Based Stormwater Alternative Mitigation Pilot 
Project--An interdisciplinary, technical team has been selected to (a) 
complete the draft watershed-based mitigation methods for the SR 522 
project, and (b) document all results, including applicability to other 
States/agencies.
    A summary report that describes the transportation project, 
identifies a list of watershed-based mitigationsites suitable for use 
for the SR 522 project, and, if possible, compares this watershed-based 
approach to mitigation with more traditional methods, has been 
produced. (go to www.wsdot.wa.gov/environment/streamlineact/watershed 
docs/methods.pdf )
    2. TPEAC One-Stop Subcommittee--This subcommittee is to develop a 
recommendation for a one-stop permit process. A request for proposals 
for the selection of a consultant services has been issued to assist in 
this task.
    3. TPEAC Planning Subcommittee--This assemblage of 20+ 
representatives of local, resource, transportation, DOTs, and other 
agencies meets monthly--so far. Products of the subcommittee may likely 
include interagency agreements for addressing growth and development 
between transportation and natural resource agencies.
    Oregon Department of Transportation's ``Collaborative Environmental 
Transportation Agreement on Streamlining (CETAS).'' The Oregon 
Department of Transportation (ODOT) has developed CETAS in response to 
Section 1309 of the TEA-21 as a coordinated environmental review 
process for the development, design, and construction of highway 
projects in the State. The CETAS process is aimed at integrating NEPA 
into the transportation planning process by allowing Federal and State 
resource and regulatory agencies to provide their input, and 
subsequently their concurrence, to the development of purpose and need 
as projects are identified in the planning phase. FHWA has provided 
financial support for this initiative because it represents a State 
streamlining activity that can be used on a national basis for 
implementing the environmental streamlining provisions of TEA-21.
    To date, ODOT and their Principle Investigators met to review 
project development process and timelines, and to determine sources of 
data for evaluation. Criteria were set for selecting 5 projects for 
investigation. Data on costs, time and environmental outcomes will be 
used to develop the methodology for CETAS.
    Colorado Department of Transportation's ``Shortgrass Prairie 
Advanced Mitigation Initiative.'' The Colorado Department of 
Transportation (CDOT) has initiated a unique public-private partnership 
with The Nature Conservancy, as well as a number of State and Federal 
resource agencies, and FHWA, for the development of procedures designed 
to protect the prairie ecosystem while streamlining the consultation 
process under Section 7 of the Endangered Species Act. FHWA has 
provided technical and financial support for this effort.
    To date, a Biological Assessment for the various species identified 
by the Initiative is being readied for submittal to the U.S. Fish & 
Wildlife Service; requirements for both baseline and annual reporting 
have been finalized; and a recommendation for CDOTs conduct of a 
conservation banking program has been developed.
                 sharing information on best practices
    FHWA Environmental Streamlining web site. The FHWA Environmental 
Streamlining web site assists local, State, and Federal agencies in the 
implementation of environmental streamlining by providing information 
about a variety of initiatives including pilot efforts, process 
reinvention, alternative dispute resolution, and guidance materials. 
The web site is continuously updated to reflect the most current 
information. In 2003, the web site will offer a database of over 14,000 
State environmental streamlining practices. The web site provides 
practitioners with easy access to current streamlining efforts, thereby 
assisting agencies with capacity building of their professionals. This 
web site can be found at www.fhwa.dot.gov/environment/strmlng/
index.htm.
    ``Successes in Streamlining'' monthly electronic newsletter. 
``Successes in Streamlining'' is a monthly Federal Highway 
Administration newsletter highlighting current environmental 
streamlining practices from around the country. An electronic 
newsletter is sent to over 1,100 subscribers each month and is provided 
on the environmental streamlining web site. Newsletter topics have 
already been identified for the remainder of fiscal year 2003. The 
newsletter allows local, State, and Federal practitioners to learn 
about effective approaches to environmental streamlining.
    Re: NEPA community of practice website. Re: NEPA, the Federal 
Highway Administration's online NEPA ``community of practice'' provides 
an open exchange of knowledge, information, and ideas concerning the 
National Environmental Policy Act, related environmental issues, and 
transportation decisionmaking. By providing a forum for exchange of 
ideas and experience, Re: NEPA provides transportation environmental 
practitioners with the opportunity to better understand the NEPA 
transportation decisionmaking process and to promote a better, more 
agreeable, and solution oriented process that balances transportation 
needs with concern for the social, economic, cultural and natural 
environment. A special forum on environmental streamlining provides a 
focus for the latest ideas and events relating to environmental 
streamlining. The address for Re: NEPA is http://nepa.fhwa.dot.gov/
ReNepa/ReNepa.nsf/home.
    Domestic scan tour on environmental commitment implementation. FHWA 
sponsored a scan tour during 2002 to see first hand how State 
transportation departments were ensuring that environmental commitments 
were implemented during the construction phase of highway projects. The 
tour visited seven State DOTs to review successful State processes, 
procedures, and methodologies for fulfilling environmental commitments 
made in the NEPA and environmental permitting process. FHWA sponsored 
this effort in recognition of the importance of this highly visible 
area in building or destroying trust with resource agencies and to 
underscore the benefits of effective commitment compliance systems in 
building a track record that supports environmental streamlining and 
environmental stewardship. The results of the domestic scan will be 
available by summer 2003 and will be presented at numerous industry 
meetings, as well as via brochure, report, CD-ROM, and the 
environmental streamlining web site.
                               rulemaking
    Withdrawal of proposed environmental impact rules. In September 
2002, FHWA and FTA issued a Federal Register notice withdrawing the 
proposed transportation planning and environmental impact rules 
published as a notice of proposed rulemaking on May 25, 2000. The 
notice indicated that FHWA and FTA officials believed that it would be 
prudent to wait for the outcome of legislative reauthorization to see 
what further regulatory changes are needed. To this end, FHWA has been 
actively working within the Administration to develop draft legislation 
that further promotes and builds upon the environmental streamlining 
successes achieved to date.
                                summary
    In summary, FHWA has aggressively pursued opportunities for 
environmental streamlining within its own program and performance, in 
its collaboration efforts with project sponsors and resource agencies 
and through partnership with other national entities such as AASHTO and 
IECR. Furthermore, with the implementation of the executive order, FHWA 
believes new opportunities for increased awareness and action on 
streamlining will come through process improvements identified by the 
executive order interagency task force. FHWA stands ready to leverage 
these opportunities to our collective advantage and buildupon the 
successes of the past year.
  

                                <greek-d>

</pre></body></html>
